<html>
<title> - WADING THROUGH WAREHOUSES OF PAPER: THE CHALLENGES OF TRANSITIONING VETERANS RECORDS TO PAPERLESS TECHNOLOGY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  WADING THROUGH WAREHOUSES OF PAPER: THE CHALLENGES OF TRANSITIONING 
                VETERANS RECORDS TO PAPERLESS TECHNOLOGY

=======================================================================



                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE

                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       TUESDAY, DECEMBER 4, 2012

                               __________

                           Serial No. 112-82

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
78-772                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               JERRY McNERNEY, California, 
ANN MARIE BUERKLE, New York          Ranking
MARLIN A. STUTZMAN, Indiana          JOHN BARROW, Georgia
ROBERT L. TURNER, New York           MICHAEL H. MICHAUD, Maine
                                     TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                            December 4, 2012

                                                                   Page

Wading Through Warehouses of Paper: The Challenges of 
  Transitioning Veterans Records To Paperless Technology.........     1

                           OPENING STATEMENTS

Chairman Jon Runyan..............................................     1
    Prepared Statement of Chairman Runyan........................    30
Hon. Jerry McNerney, Ranking Democratic Member...................     3
    Prepared Statement of Hon. Jerry McNerney....................    31

                               WITNESSES

Richard Dumancas, Deputy Director for Claims.....................     4
    Prepared Statement of Mr. Dumancas...........................    32
    Executive Summary of Mr. Dumancas............................    35
Michael R. Viterna, Esq., President, National Association of 
  Veterans Advocates.............................................     6
    Prepared Statement of Mr. Viterna, Esq.......................    35
    Executive Summary of Mr. Viterna, Esq........................    40
Jeffrey C. Hall, Assistant National Legislative Director, 
  Disabled American Veterans.....................................     8
    Prepared Statement of Mr. Hall...............................    41
James G. Neighbors, Director of DoD/VA Collaboration Office, U.S. 
  Department of Defense..........................................    18
    Prepared Statement of Mr. Neighbors..........................    46
Scott Levins, Director of the National Personnel Records Center, 
  U.S. National Archives and Records Administration..............    20
    Prepared Statement of Mr. Levins.............................    51
Alan Bozeman, Director, Veterans Benefits Management System 
  Program Office, Veterans Benefits Administration, U.S. 
  Department of Veterans Affairs.................................    22
    Prepared Statement of Mr. Bozeman............................    55

                   MATERIALS SUBMITTED FOR THE RECORD

Letter From: Hon. Michael H. Michaud, Subcommitte on Disability 
  Assistance and Memorial Affairs, Committee on Veterans' Affairs 
  - To: The Hon. Leon E. Panetta, Secretary of Defense, and The 
  Hon. Eric Shinseki, Secretary of Veterans Affairs..............    59


  WADING THROUGH WAREHOUSES OF PAPER: THE CHALLENGES OF TRANSITIONING 
                VETERANS RECORDS TO PAPERLESS TECHNOLOGY

                              ----------                              


                       Tuesday, December 4, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Runyan, Stutzman, McNerney, and 
Michaud.

            OPENING STATEMENT OF CHAIRMAN JON RUNYAN

    Mr. Runyan. Good afternoon and welcome everyone. This 
oversight hearing of the Subcommittee on Disability Assistance 
and Memorial Affairs will now come to order.
    I called this oversight hearing today to discuss an 
important yet often overlooked aspect of the veterans benefit 
process, access to various service department records. Such 
records are often necessary and vital for our veterans to prove 
their claim. As Chairman of the DAMA Subcommittee, I am 
troubled by the information regarding the handling of the 
records that has come to my attention. In today's environment, 
as we shift from paper records to a digital environment, 
important questions arise regarding what the best practices are 
for making this transition.
    For example, agencies, such as the VA and the National 
Archives and Records Administration, or NARA, must engage in a 
daunting cost-benefit analysis to determine what records should 
be digitized and how this process should take place. Similarly, 
the Department of Defense must determine the best ways to 
maintain digital records in various environments from DoD 
hospitals to combat zones. Further, all three agencies must 
continue to work together to ensure that veterans' records are 
initiated, maintained and transferred as efficiently as 
possible.
    Today that is the aspect we would like to focus on: the 
efficiency of the records management process. As many of you 
may already be aware, the records management process begins 
with the DoD. Veterans depend on the DoD to properly note 
certain inservice events, whether in the veteran's individual 
service medical and personnel records, or in the unit 
histories. Issues pertaining to the thoroughness of the DoD's 
recordkeeping have recently received media attention in light 
of evidence that some units were not properly documenting in-
service events, such as combat-related incidents. This has been 
a source of significant frustration for many veterans who file 
claims with the VA and are dependent on such documentation to 
substantiate their claims.
    For those records that are properly maintained by DoD, 
custody of certain records is turned over to the Archives, 
although different branches of the service have different 
policies and procedures. The National Archives and Records 
Administration maintains millions of military personnel health 
and medical records for discharged and deceased veterans of all 
services. Although the Archives recently began receiving access 
to digital records from the Army, they do not have full digital 
access to other service branches. In addition, the agency still 
maintains a full warehouse of paper records from older 
generations of veterans. All agencies that handle such vast 
amounts of paper know that there are challenges associated with 
maintaining both digital and paper records.
    The Archives has recently faced some challenges with 
respect to maintenance and security of veterans' records. I 
would like to invite NARA to continue an open dialogue with 
this Committee so that the most effective procedures for 
maintaining veterans' records can be implemented.
    Turning to the role of the VA, the agency has a statutory 
duty to assist a claimant in detaining certain records. 
Accordingly, it is important that we work together to ensure 
that the VA is able to communicate both effectively and 
efficiently with both the Archives and the DoD to comply with 
this duty.
    In addition, the VA is also in the process of making 
important decisions about how veterans' records and claims 
folders are being handled in the digital environment, as they 
continue their transition over to the veterans' benefits 
management system, or VBMS.
    While we all have high hopes for VBMS, we must not overlook 
one of its essential functions, which is the process of 
scanning and converting veterans' records.
    Before I conclude, I would like again to emphasize that our 
goal here today is to ensure the entire chain of command from 
the DoD to the Archives to the VA handle veterans' records with 
the utmost care and respect. Often, a single record or notation 
can be the difference in whether a veteran's disability claim 
is granted or denied. This is why we must work together to 
ensure that no records are lost, overlooked or otherwise unable 
to be associated with an individual disability claim.
    I welcome today's witnesses to continue the ongoing 
discussion and offer their own specific recommendations on how 
to improve upon the veterans' records management process, 
particularly now as we look to transition into a digital 
environment.
    With that, I would like to now recognize the Ranking 
Member, Mr. McNerney from California, for his opening 
statement.

    [The prepared statement of Chairman Jon Runyan appears in 
the Appendix]

           OPENING STATEMENT OF HON. JERRY MCNERNEY, 
                   RANKING DEMOCRATIC MEMBER

    Mr. McNerney. Well, thank you, Mr. Chairman, for holding 
today's hearing about veterans' records and how the VA is 
managing its transition to a paperless system with new 
technologies.
    We have all read in recent articles regarding lost, 
inaccurate and mishandled veterans' records at the hands of the 
DoD and the VA as well as the struggles in recapturing this 
data once its lost or improperly recorded. This is troubling 
and unacceptable. Congress hears complaints of lost, missing, 
destroyed or unassociated files all too often.
    Information regarding a veteran's claim should be better 
protected by those in charge with its care. Accountability 
needs to occur at the management level, with individual 
employees who handle the day-to-day influx of information.
    Veterans and their families should not be burdened with the 
responsibility of recreating lost files or providing multiple 
copies of records that once were in the DoD or VA's possession. 
I also remain troubled about the more than 1.3 million claims 
and appeals that are hanging in the VA's flawed processing 
system.
    In an organization with a current management culture that 
often overemphasizes production over quality, it is imperative 
that we make comprehensive performance improvements to the 
system, while ensuring accurate and accountable claims outcomes 
for our veterans. I know the VA is taking great pains in this 
direction. However, today, like many veterans and stakeholders, 
I cannot say that I have complete confidence that the VA is in 
complete control of this process. I have met with too many 
veterans who have had to wait for years for initial decisions 
on their benefits. I have heard too many unfortunate stories of 
veterans who suffer as a result of VA temporarily closing poor 
performing regional offices for retraining like the Oakland 
regional office that serves the veterans in my district.
    While the average days pending for most claims is 225 days, 
in the Oakland regional office, it is an incredible 425 days. I 
know the VA regional offices, such as Waco and Los Angeles, are 
experiencing similar delays. In fact, these delays are systemic 
because 67 percent of all claims and appeals are in backlog 
status, with nearly 25 percent being done erroneously.
    Why the disparity? Why the protracted delays? Since 2007, 
the VBA has added over 11,000 processing personnel, and 
Congress has funded these requests; yet the backlog still 
climbs. The VA OIG concluded that in order to change these 
outcomes, the VA needs to emphasize policy guidance, 
compliance, oversight and workload management training and 
supervisory review in order to improve claims processing 
operations.
    The year may be about to change, but the issues are the 
same. The backlog is just a symptom of the problem. The current 
system is broken and in need of a major overhaul. We need to 
focus on getting the claims right the first time as if do-overs 
were not an option. We need to get this right so that no claims 
are languishing and the veterans and their families and 
survivors get the benefits that they have earned and deserve 
without delay.
    I am somewhat enthused actually by some of the VA's latest 
technology undertakings, including e-benefits and its 
stakeholder portals.
    However, I remain concerned that, again, some of the VA's 
efforts move forward without direction, like a rudderless 
rowboat.
    VA needs a comprehensive plan with a clear vision and a 
mission, as many of its stakeholders indicated in their 
testimonies. To date, we still have not received the VBA 
transformation plan that the VA Under Secretary Hickey promised 
at our hearing in June of this year. Today's witnesses will 
provide us with greater insights on these systemic problems, 
including how veterans and their dependents are harmed when the 
VA and DoD mishandle their documents and how improvements can 
be made.
    I hope to hear testimony that responds and reflects the 
VA's solemn duty to deliver its benefits mission using world 
class 21st century inputs that focus on veterans instead of the 
processes.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Hon. Jerry McNerney appears in 
the Appendix]

    Mr. Runyan. I thank the gentleman.
    With that, I would like to welcome our first panel to the 
witness table please.
    Mr. Runyan. First, we will be hearing from Mr. Richard 
Dumancas, the Deputy Director for claims with the American 
Legion. Next, we will hear from Mr. Michael Viterna, President 
of the National Association of Veterans Advocates. And our 
final witness on this panel will be Mr. Jeff Hall, the 
Assistant National Legislative Director with Disabled American 
Veterans.
    Gentlemen, your complete and written statements will be 
entered into the hearing record.
    And Mr. Dumancas, you are now recognized 5 minutes for your 
oral testimony.

STATEMENTS OF RICHARD DUMANCAS, DEPUTY DIRECTOR FOR CLAIMS, THE 
  AMERICAN LEGION; MICHAEL VITERNA, ESQ., PRESIDENT, NATIONAL 
ASSOCIATION OF VETERANS ADVOCATES; AND JEFFREY HALL, ASSISTANT 
   NATIONAL LEGISLATIVE DIRECTOR, DISABLED AMERICAN VETERANS

                 STATEMENT OF RICHARD DUMANCAS

    Mr. Dumancas. Thank you, Chairman Runyan, Ranking Member 
McNerney and distinguished Members of the Committee. I am 
honored to come before you today on behalf of the 2.4 million 
veterans of the American Legion to discuss the magnitude of the 
data component in the VA and their efforts to transform the 
claims processing system from the 20th century to the 21st 
century and hopefully well into the future.
    We all know America is well aware of the struggling VA 
claim system as a mixture of media outlets report that VA's 
backlog has jumped 179 percent since 2009.
    With the growing backlog, the VA has been running a 
marathon to come up with a solution to their set goal for 2015. 
Veterans Benefits Management System and Stakeholders Enterprise 
Portal Programs do offer a glimmer of hope.
    With transitioning into current century, one of the major 
challenges to transition veterans records into a paperless 
environment is scanning. The American Legion recently learned 
that the benefits delivered at discharge BDD program currently 
does not have a current contract for scanning. After hearing 
this, my first thought was, what is happening to those files 
that are not being scanned? Are they being worked like their 
grandparents' paper file in the 1940s? Or are they collecting 
dust on a shelf silently building into a monster problem?
    If there is no contract for scanning and files are not 
being processed, veterans must be made aware that their claim 
is not being processed because of the lack of a contract for 
scanning. When asking the VA about scanning contracts, there 
seems to be uncertainty on the details of guaranteed contracts. 
If there is a long-term scanning contract available for VBMS, 
then why isn't there one more BDD? Or have the same contract or 
contractors doing the scanning for BDD? The American Legion 
would like to see a clear road map laying out VA's plans to 
transform the paper product into the digital world. We are 
hopeful VA will be able to shed some light on that today.
    Another step in the 21st century is the promise of virtual 
lifetime electronic record, or VLER, between VA and DoD. The 
ability to maintain simple electronic records for 
servicemembers and veterans from cradle to grave should be a 
given. The American Legion urges VA and DoD to make VLER a 
process that is practiced within all Federal agencies that 
document and maintain a military record. As an example of 
maintaining a military record, we have relied on the National 
Guard and Reserve to fill for the dwindling active forces.
    Over 650,000 Reserve members have deployed since September 
11, 2001. We deploy them under or attached to units that are 
not their home units. Their records seem to be hardest to find 
or combine. We review rating decisions that lack the evidence 
of Federal medical documentation. If the Guard or Reserve 
member submits for compensation through VBA for the exact same 
condition that put them out through the medical and physical 
evaluation board, there should be no way the VBA can deny their 
claim because of lack of military records. We understand that 
Reserve members' medical records can be split over multiple 
locations, but one would want to believe that eventually they 
would meet up into one file. This process should be measured in 
days, not months or years. Any joint electronic records must 
help consolidate Guard and Reserve data as well.
    The American Legion urges all agencies to work together to 
ensure that no servicemembers or veteran's information is lost 
or mishandled and that all information can be easily accessed 
by all service providers.
    With a need for transition, policy rules and regulations 
must be clear and solid. The American Legion strongly 
encourages the VA central office to provide even more precise 
direction and guidance to the lowest level of VA employees, and 
to ensure problem areas, such as the following, become a 
priority in training: Current stats published by the VA reflect 
a huge difference in claims process. Why is it that Togus, 
Maine; St. Paul, Minnesota; Fargo, North Dakota; Cheyenne, 
Wyoming regional offices are hovering around 22 to 30 percent 
of their inventory pending over 125 days, but on the same 
report, Baltimore, Roanoke and Chicago and Oakland regional 
offices are stating 74 to 87 percent of their inventory is 
pending over 125 days. Why are these ROs' production so 
different?
    Training must be the same across the board. Training and 
production of ROs, such as Togus, should be the same that is 
provided in the ROs, such as Roanoke. The central office should 
formulate a plan for the lower inventory ROs to mentor or 
provide best practices to the higher inventory ROs. Central 
office needs to enforce the best practices and highly encourage 
all ROs to follow their leaders.
    This is for the veteran. All veterans deserve the best 
service for their service.
    Chairman Runyan, Ranking Member McNerney and distinguished 
Members of the Committee, this conclude my statement and I am 
happy to answer any questions that you may have.

    [The prepared statement of Richard Dumancas appears in the 
Appendix]

    Mr. Runyan. Thank you.
    And with that, I will recognize Mr. Viterna for his 
testimony.

               STATEMENT OF MICHAEL VITERNA, ESQ.

    Mr. Viterna. Thank you, Chairman Runyan, Ranking Member 
McNerney and other distinguished Members of the Subcommittee.
    Thank you for the opportunity to testify today about 
veterans records. My name is Mike Viterna, and I am here as the 
president of the National Organization of Veterans' Advocates, 
whose members assist claimants in the appeal of VA denials of 
claims. I am also here as an attorney in private practice, who 
has dedicated my legal work to VA law. And I am here as a 
veteran who served 33 years of Air Force service.
    NOVA applauds VA's efforts to transition from a paper-
driven system of records to a digital format, and we are 
appreciative of this Committee's oversight of that transition. 
There are many reasons why this transition has to occur and 
occur without delay. One example is that most veterans have 
multiple claims and it is not unlikely that those claims will 
be at different stages of development in adjudication. One may 
be before the regional office, another on appeal to the board 
of veterans appeals, still another at the court. And it is 
quite obvious that with a single paper claims folder, that all 
these claims are not going to obtain the attention they deserve 
simultaneously.
    We understand the VA is meeting with representatives of the 
Social Security Administration regarding their electronic 
record format, and we appreciate this, and we hope that they 
take the best practices from that system and apply it as this 
goes forward.
    I want to talk about service records for a second. We were 
deeply troubled to learn from recent news reports that records 
from many who have served in Iran and Afghanistan were either 
lost, destroyed or never created in the first place. A claim 
for veterans' disability benefits is dependent upon accurate 
and complete service department records. And when those are 
missing for whatever reason, the burden unfairly shifts to the 
veteran to produce other evidence. That evidence typically 
takes the form of lay testimony, and that is either from the 
veteran, the family or buddy statements. But in the end, and 
despite clear legal authority, VA has been hesitant to accept 
those statements as sufficient proof of an in-service event.
    These claims depend on accurate records. And as you know 
under the law, a disability claim to succeed must have medical 
evidence for current disability, there must be evidence of an 
in-service occurrence or aggravation of a disease or injury, 
and then there must be medical nexus or linking evidence that 
provides this link of the claim condition to the service event.
    In our written testimony, we provided several examples of 
how veterans can be adversely impacted if the reports are 
missing. In one case of note was a person who served in the 
1950s. He claimed that he had various medical conditions for 
which he was treated while in service. He files a claim in 
1990, was denied for lack of corroborating evidence. As it 
turns out, his records were destroyed in the fire in 1973 at 
the National Personnel Records Center, but the end result of 
all this is that, 20 years later, this case has been to the 
veterans court three times, and that is where it is today, and 
there is really no hope this matter is going to be resolved to 
his benefit any time soon.
    NOVA would like to make the following recommendations for 
your consideration: The service departments must be required to 
maintain complete and accurate records of the personnel and 
unit activities, and they must provide those records to VA in a 
digital format for their ease of use. So we ask Congress to 
mandate that DoD and VA work together to facilitate this 
seamless transition of records. It is just critical for our 
veterans.
    But in addition, we can't undo all that has happened, and 
we are suggesting that the evidentiary burden be lessened for 
veterans who fall into this category where the records have 
been lost, destroyed, remain classified today, or never created 
in the first place or are otherwise lost through no fault of 
their own.
    NOVA would propose that language be added to 38 U.S.C. 
1154(a) that would mimic the provisions provided in 1154(b) 
that is reserved for combat veterans and essentially provides 
that lay or other evidence shall be accepted by VA to establish 
incident or aggravation in service if consistent with the 
circumstances, conditions or hardships of such service, even if 
no official records exist. And this evidence may be rebutted 
only by clear and convincing evidence to the contrary.
    In conclusion, the importance of the complete and accurate 
service records cannot be overstated. As you know, Congress has 
created a unique benefit system like no other in recognition of 
those who answer the call to serve and defend their country. To 
deny a veteran his or her disability benefits because the 
records are not available due to no fault of his or here own 
just isn't right, and it deserves this Committee's continued 
attention. Thank you. If you have any continuing questions.

    [The prepared statement of Michael Viterna appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Viterna.
    Mr. Hall, you are now recognized.

                   STATEMENT OF JEFFREY HALL

    Mr. Hall. Thank you, Chairman Runyan, Ranking Member 
McNerney, and Members of the Subcommittee.
    On behalf of DAV and its 1.2 million members, I am pleased 
to be here today to offer our perspective on how the management 
of the massive volume of paper records has resulted in 
extraordinary delays and the denial of veterans' claims as well 
as contributed to the enormous backlog of claims for benefits.
    Mr. Chairman, the integrity of the entire benefits system 
is, benefits claim system is only as strong as the integrity of 
the evidentiary records supporting these claims. Before our 
veteran can be found entitled to a benefit from VA, VA must 
have sufficient evidence, such as proof of military service, an 
accurate medical history, proper documentation. And custody of 
service personnel and medical records is absolutely essential 
to the accurate and timely adjudication of any veteran's claim 
for benefits.
    Most of the records needed to satisfy benefits claims are 
held primarily by Department of Defense, Department of Veterans 
Affairs, the National Personnel Records Center or by State 
National Guard units.
    Additionally, there may be private medical records that are 
crucial to proving claims. Whenever there are problems or 
delays in locating any of these essential records, veterans and 
their families suffer. I know firsthand from my own personal 
military experience and as a DAV NSO for nearly two decades 
about the hardships that occur when records are lost, misplaced 
or simply can't be found.
    In 1991, while serving in the Army during the First Gulf 
War, I was wounded in Kuwait. I was medically evacuated by the 
Marine Corps, operated on by the Navy and airlifted home by the 
Air Force. When I finally arrived at Fort Hood, I learned there 
was no record of my arrival, no record of being wounded and no 
surgical or post-op care records available.
    Later, I was told my medical records were likely destroyed 
rather than transporting them home.
    To this day, treatment reports are missing from my 
permanent records. Whether these missing records will one day 
lead to a delay or denial of any VA benefit for me or my family 
remains to be seen. But there are thousands of veterans that 
have been hurt by lost or misplaced records throughout history, 
a problem that has never been resolved and a problem that 
remains unacceptable.
    Let me cite two examples from my testimony that I feel are 
important today. In May 2011, a Marine Corps Reservist, also an 
OEF combat veteran, filed his original claim for nine 
disabilities to include traumatic brain injury and post-
traumatic stress disorder. It took 10 months simply for the VA 
to request the service medical records. And in August 2012, 
more than a year after the claim was received by VA, the 
service medical records still had not been obtained, and 
another attempt by VA would have to be made. However through 
the veteran's own initiative, he recently contacted his Reserve 
unit directly to request his records.
    Sadly, the proper exchange and retrieval of these medical 
records didn't take place earlier because the veteran's claim 
has now been pending for nearly 19 months without a decision, 
completely unacceptable.
    In another case, an Air Force veteran who served during the 
Vietnam war in 1967 filed his original claim for disability 
compensation nearly 40 years later in 2008. The claim was 
denied, even though VA never even reviewed the service medical 
records. Although the VA regional office did receive his 
personnel records from the National Personnel Records Center, 
his service medical records were lost somewhere between the 
NPRC and the VA regional office. Those service military records 
would have indicated that the veteran had been on sick call 
approximately 16 times, and he had even been hospitalized one 
time, as verified by his service personnel records. Eventually, 
we filed an appeal with the board of veterans appeals, and in 
2012, nearly 4 years after the date of claim, the case has 
recently been remanded to the VA regional office for yet 
another attempt to obtain the records.
    Mr. Chairman, vital service records can be lost at any 
stage. They may be lost during active duty, during transit to 
or from the National Personnel Records Center or while being 
stored at a VA regional office or the Records Management Center 
for the National Personnel Records Center. With tens of 
millions of military records housed at the National Personnel 
Records Center and VA offices, the maintenance and security of 
these essential paper files remains of the highest importance.
    DoD, VA and the NPRC must focus in three areas. First, 
there must be immediate improvement in the management of paper 
records or archives. Secondly, paper records must be converted 
into digital records. And thirdly, there must be development of 
a new digital record storage and processing system.
    While the problems of VBA's backlog continue to be 
staggering, there are signs that slow progress is being made. 
However, Congress must continue to oversee VBA's transformation 
process and must ensure that the Veterans Benefit Management 
System is completed and fully implemented.
    In addition, DoD and VA must also work closely to create a 
lifelong electronic records system for all servicemembers, 
beginning at the moment of enlistment and including all of 
their military medical and personnel records and should be 
integrated with health records from VA as well as other public 
and private health care providers.
    Finally, as long as there remain paper files that must be 
stored, transferred and preserved, VA, DoD and the National 
Personnel Records Center or NARA must have adequate controls in 
place, including regular independent audits to guaranty 
preservation and integrity of these vital service personnel and 
medical records.
    Additionally, as each of those agencies converts paper 
records to digital files, there must be rigorous oversight and 
control to ensure that vital original paper records are not 
lost or damaged during this conversion process.
    Mr. Chairman, this concludes my testimony. I will be happy 
to answer any questions.

    [The prepared statement of Jeffrey Hall appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Hall.
    And with that, we will start the round of questioning.
    Mr. Hall, to go back to your testimony, the example you 
used right after your personal one, you said the individual 
went directly back to his unit to get his records?
    Mr. Hall. He was not directed back to it. He had 
communicated through our national service officer at the 
regional office; throughout the process, we were keeping in him 
informed of what was going on. And of course, there was that 
delay approximately of 10 months where we finally found out a 
request had not even been made for the record. So essentially, 
what had turned out after some back and forth conversations 
with, say, the development team of the RO was that they had 
indicated if the veteran had obtained these records himself at 
the beginning, there wouldn't have been a delay. So it was just 
corroborating the fact that although they didn't indicate to 
him that he should get those records, it was through advice 
through our--which we generally give to any claimant is to--
don't leave service without a copy of your records, or if in 
the process of a claim, if you have a way of obtaining, like in 
this case, can you contact your unit and get those records?
    Mr. Runyan. And going to the end of your testimony, you 
talked about the systemic issues related to records management 
that could be alleviated with more digital technology, and 
obviously, what we just talked about was an example of that.
    Can you try to explain that? Because one thing I'd like to 
bring up is that, when we do these things digitally, we know 
where it happened in time and place and who was at the controls 
of it. Can you kind of elaborate on that?
    Mr. Hall. On which particular aspect?
    Mr. Runyan. On just the systemic issues related to the 
records management which we could alleviate with digital 
technology, as I just gave that example, because where it is at 
and it is not that hard if you call over and say, where is this 
in the process?
    Mr. Hall. Obviously, electronic records, digital scanning 
and things, the way that things are moving within VA, we 
believe it is inherently a good thing because there are a lot 
of great aspects to it, chiefly timeliness and safeguarding of 
the information once it has been converted digitally.
    Now with VBMS and how everything ties together which is 
part and parcel to this, but it must be noted that when all of 
this system, anybody at any stage, whether it is the veteran 
through the e-benefits system or his service officer, as an 
example, will be able to tell exactly where everything is 
because everything has been either filed electronically, so 
there was no paper to begin with, which we encourage our 
claimants to do from the start, or it is paper that has been 
received from the claimant that has been scanned or digitally 
input into the system. But yes, one of the things I want to say 
is that VBMS and where it is in the stage--and I am sure we 
will learn more today as far as an update of where it is in the 
process--it has to also--not only should--we have to make sure 
that as we have said in the past that the VBMS needs to be 
completed and needs to be implemented, and of course, we will 
see how that goes during the coming year with everything 
getting online, but it must also include the Appeals Management 
Center, the Board of Veterans' Appeals and the Court of Appeals 
for Veterans Claims, as well as the other business lines within 
VA. But as far as the claims process that you and I are talking 
about, it has to be sure that it includes those other--AMC, VBA 
and the court as well.
    Mr. Runyan. Thank you.
    Mr. Viterna, you mentioned the talks that VA and the Social 
Security Administration are having. From your knowledge of it, 
do you see there is anything to learn? What is the benefit of 
the talks, and what can we do to maybe learn from the Social 
Security process?
    Mr. Viterna. I don't practice Social Security law, but I 
have got friends that do Social Security law, I have friends 
that show me how simple, with their tablet, they log on to the 
Social Security site; they get a text on the cell phone. They 
have 10 minutes or so to enter a code, and they are filing 
documents and getting status of reports. And it is realtime and 
accurate and complete information. And I guess the essence of 
the issue is to either reinvent the wheel or to look at systems 
that work. I know it is not quite that simple, but they have a 
system that works, and to the VA's credit, I understand they 
are studying some of that, and I hope that it continues, and we 
get the best from it and build from there.
    Mr. Runyan. Thank you.
    Mr. Dumancas, how do you think the record management 
process for our Guard and Reservists can improved, you used the 
example of how their records could be in multiple places. 
Obviously, if it is in a digital format, it can be very much 
linked together. Can you expand on that a little bit?
    Mr. Dumancas. Yes, sir. We believe that if you start an 
electronic record from the very beginning and everything flows 
into it and don't make it so it is a personnel file and a 
health record separate, make them one, when a--when we call the 
Guard and Reserve members up, it is all digitized. If they are 
injured in Bagram and they come to Landstuhl and they come back 
to Fort Carson, that it will would flow without any paper work. 
The health technician at Fort Carson should be able to see from 
Landstuhl to Bagram to say if they are from Sacramento, 
California, all the way from Sacramento, California, to Bagram 
and back, we believe it should be electronic. It would create 
such a short time span of waiting on our medical record, 
because like right now, when a Guard member or Reserve gets 
injured and there is a piece that is missing and they apply for 
it, but the VA cannot see that because DoD has it somewhere, it 
is more than likely that their claim is going to be denied. Or 
even if they come back and they have this injury, well, medical 
doctors cannot see that record. For instance, I see Fort Myer 
is my health primary care, and I was treated in Minnesota under 
the VA. But when I come out here, I moved out here, my doctor 
in Fort Myer could not see my record in the VA. So as a 
veteran, I am thinking, oh, well, you should be able to see it 
because the VLER and all this other stuff. Well, I find out 
that my doctor cannot see any of my records. If I had known 
that, I would have requested a paper copy of my file from the 
VA and brought it to Fort Myer. So, by electronically, it would 
shorten the time span and response times and the searches for 
the medical records or for the personnel files.
    Mr. Runyan. Thank you.
    With that, I recognize the Ranking Member, Mr. McNerney, 
for his questions.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Dumancas, why do you think there is so much variation 
in the backlog from RO to RO?
    Mr. Dumancas. I believe it is, it could be mainly training 
and direction, like, for instance, the lack of, the relaxation 
of PTSD, a lot of the raters--not a lot of but some of the 
raters--I don't have a good number of them, but are confused on 
the direction. They are confused on the policy and the 
procedures, and I believe if you had one source training, where 
it is just the VA has like a training center, I don't know if 
its centrally located or divided up into the regional areas, 
but they are all training the exact same procedure.
    Mr. McNerney. Do you think the size of the ROs is strongly 
correlated to the backlog?
    Mr. Dumancas. I honestly don't believe it is, because when 
I brought up Togus to a couple of my co-workers, they said, 
well, it is because Togus is small. Well, if Togus is small, 
but they have X amount of files, I know the VA doesn't have an 
over lump sum of FTEs, full-time employees, at Togus. They 
probably have it is calculated out to a certain amount of 
employees. So if Oakland has the same amount of employees 
versus the files percentage just like Togus, there shouldn't be 
a difference. And that is why I believe that policy and 
procedures coming down from central office to the ROs directing 
them would strongly assist in the process and training. I don't 
know if that makes sense.
    Mr. McNerney. It does. Of course, training and consistency 
is critical.
    Mr. Dumancas. Correct. And I believe also--I know the VA, 
we go out to ROs, and we talk to different ROs, and I know 
training, it is hard now because we have the older generation--
I don't mean to slam anybody for their age, but they are 
retiring. The well seasoned raters and trainers are leaving. 
They are retiring. And now we have to rely on the younger 
force, and they are not as seasoned as the people who are 
retiring. So that might be a consideration, also.
    Mr. McNerney. Mr. Viterna, you mentioned that the DoD 
departments must have accurate records of personnel and 
deployments. What is the state of that situation right now? How 
accurate, how good are the DoD's records?
    Mr. Viterna. My experience for years has been that the 
records have always been a problem from World War II on. It is 
just in the latest news reports, it gives specific examples, I 
guess, of files being lost in Iraq/Afghanistan. I know, in my 
military career, the file that I left with when I retired is 
this big, and I imagine a fraction of that actually made it 
into my official records.
    We would travel without orders; that was just a way of 
life. But in the big picture for justice to be done for the 
veterans, there has to be records kept, at least of the unit's 
activities and what the people are doing there. And if they are 
classified, then they have to be, there has to be a means to 
translate that and the proper format for those who need to be 
make decisions, but it is just unconscionable to not have those 
records because the veteran is left to his own resources. He 
can't obtain the records himself because they don't exist, for 
instance. So is he left with lay testimony or medical opinions 
that are premised on whether this had happened in service. We 
find that those have been pretty ineffective over the years in 
our experience.
    Mr. McNerney. Yes. I guess we don't have too much 
jurisdiction on how the DoD takes records, but we can encourage 
them to do that.
    Mr. Hall, in the NOVA testimony, you suggest introducing 
legislation to lessen the burden of proof for establishing 
inservice incurrence for veterans whose claims are impacted by 
missing military records. Do you have a comment about that?
    Mr. Hall. In the written testimony?
    Mr. McNerney. Right.
    Mr. Hall. I am sorry could you repeat?
    Mr. McNerney. Do you have any suggestions on Mr. Viterna's 
comment on lessening the burden of proof?
    Mr. Hall. I think it would, I liked what my colleague here 
said earlier about lessening the burden of proof. Whether or 
not you can change 1154(a) and have a single one such as the 
burden of proof under 1154(b) for combat veterans, I don't know 
that you can necessarily do it in that particular manner. But I 
do believe, when there is an absence of records, and it has 
been verified that there are no records, when VA in a case that 
I can give you and I think one of them is in my written 
testimony, an example where the veteran is notified, we can't 
find your records and we are not going to search for them 
further, any further search would be futile; that is a case to 
me where, by no fault of the veteran, your claim is going to be 
denied because there are no records for us to look at, there 
should be some provision in the law that has to be able to 
overcome that type of an activity.
    Mr. McNerney. Before I yield, of course, the statement 
about Reserves and Guard members being at the mercy of the DoD 
because that is not their home unit, that is something that 
needs to be looked at. That sounds like a pretty difficult 
problem.
    Mr. Hall. It has always been difficult dealing with, 
especially National Guard units, as a service officer helping a 
veteran who files a claim; there is a broken communication.
    I don't know whether it is on the National Guard end of it, 
not understanding fully what it is--I would like to think that 
it is not simply that--or the impact. The same can be said of 
somebody on active duty that has, doesn't really get cared for, 
transporting records home or erasing hard drive on records 
coming back, not understanding the full impact of what waits 5 
years down the road or 3 years down the road, so that 
communication between the National Guard and the VA for 
example, that must be overcome.
    Same as Reserve units, but mostly for, we see it most of 
the time in the National Guard, and predominantly, that is what 
we are dealing with, is our veterans that are called up to 
active duty in the National Guard and serving overseas.
    Mr. McNerney. Thank you for your testimony.
    I yield back.
    Mr. Runyan. I thank the gentleman.
    Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman and Mr. 
Ranking Member, for having this hearing.
    Mr. Chairman, if there is no objections I would like to 
enter into the record a one-page letter that I sent to the VA 
and the Department of Defense over 2 weeks ago. The letter asks 
for information from both agencies regarding recent reports of 
missing field or unit records and I have not yet received a 
response.
    Mr. Runyan. Hearing no objection, so ordered.

    [The information appears in the Appendix]

    Mr. Michaud. Thank you, Mr. Chairman.
    In response to Mr. Dumancas' comment about Togus, I think 
it gets back to the issue I mentioned over and over again when 
you look at Togus dealing with claims, they are considered an 
employer of choice, and that is why I think we have a high 
accuracy rate as well as getting the work done on time. And a 
part of that, I believe, gets back to turnover rates, and that 
is one thing I have asked over and over again of other 
agencies, regions, about their turnover rate and still I have 
got, as far as I know, to receive that information, so it gets 
back to the mentality and the workforce being able to take a 
pride in their work. So I am very pleased that Togus is on top 
of the list.
    My question to the panelists, starting with Mr. Dumancas 
first, is, have any of you experienced in working with the 
military in trying to track down records from the Department of 
Defense, and if so, can you discuss the responsiveness from the 
military?
    Mr. Dumancas. Before I came out to the American Legion here 
in Washington, D.C., I used to be to a county veterans service 
officer in Minnesota. And it was tough with, especially like 
Mr. Hall was saying with the National Guard. When we submitted 
a claim, the regional office would send our request to the 
National Guard. The National Guard didn't have the records. We 
could never find them. We don't know if they were stuck with a 
different unit because they would split up into onesies and 
twosies going with--from Duluth, Minnesota, they deployed with 
Monticello or wherever. And one of the other things that we 
experienced, I had the opportunity, one of the guard units came 
to me with 20 service treatment records that they finally got 
put together, they assembled. The problem was that the Guard 
unit hadn't--lacked the funds to mail them in to the requesting 
RO. Luckily, my county said, yes, go ahead and ship them down 
to the RO for those training, for those members that submitted 
for their claims. It is always difficult, and I don't know why 
it is, but when a Guard member goes out as a onesie or a 
twosie, not as a unit, they always come back, and we have the 
hardest time trying to locate their records. I don't know if it 
is because active services aren't paying attention to the 
National Guard, you know, or they don't care because they are 
National Guard, or they are just, because they are more focused 
on the active duty. I am not really sure. But it is something 
that really needs to be looked into.
    One of the things that I would like to bring up is a good 
friend of mine back in Minnesota was injured in Iraq. He was an 
Army Reservist. His HUMVEE rolled over, so he sustained TBI and 
neck injury. While at Fort Carson, the active duty doctor told 
him, well, you are a Reservist, you should just go back to 
Minnesota. Your unit will take care of you. That is ridiculous. 
The guy was on a Title 10 tour at the time. He was active duty. 
But when sister services start treating each other like that, 
that has got to come to a screeching halt. They need to work 
together. And also the DoD needs to work with the VA and NPRC 
also.
    I hope that answers your question. I am sorry.
    Mr. Michaud. Any other panelists have any--
    Mr. Viterna. My personal experience with the National Guard 
is, as my colleague was saying, was with these individual 
deployments, and that without careful intake at the receiving 
units, these people get attached to a unit, so whatever 
designation they carried with them, for instance, my case of 
127th Wing from Michigan, gets blurred. Now they are attached 
to some other organization, and typically, there is no way to 
figure out this person's original unit, nobody takes the steps, 
obviously, to track this person down. I know, when I was 
stationed at Selfridge, in Michigan, we would get a group of 
records in the mail, and they are lost souls. And at first, 
they go to the Army clinic. Then they go to the Navy clinic, 
work their way to the Coast Guard and then to the Air National 
Guard and the Reserves, and we would just pick out people we 
might be able to recognize. But the process in identifying 
these individuals in their home units has never worked well, 
and those records are simply missing, never to be found.
    Mr. Hall. I would say that over the years, I don't recall 
any particular dealings with military directly, me personally, 
other than my own particular case, which I told you how that 
turned out. But we have transition service officers, I think 
roughly 30 of them, at different military installations. And so 
they are dealing with it today firsthand, and of course, you 
are educating an individual about what their entitlements are, 
but you are also educating them about when they leave military 
service, make sure you have a copy of your records for 
yourself, for your own records, so hopefully that does minimize 
a little bit of that. However, if there is some sort of an 
instance that happens while the person is still active duty, 
our transition service officer can certainly look into it at 
that particular point because they have the connection, they 
are on post.
    When you are calling from a regional office and you say you 
are with the Disabled American Veterans, it doesn't matter to a 
lot of people who you are. And if I could just go back to one 
other thing and say to Ranking Member McNerney's question about 
variations in different ROs, I just wanted to sum it up and say 
training, testing, accountability, leadership and culture. That 
is why you have the differences. Thank you.
    Mr. Runyan. I thank the gentleman.
    I actually have one more question. I will give the other 
Members an opportunity, too.
    Mr. Hall, you talked about this with your personal 
experience, but as we document this stuff and go back all the 
way into the combat scenario, how prevalent is the issue of not 
actually even having a record of an incident to start with, let 
alone the issue we have been talking about trying to find out 
after it occurred?
    Mr. Hall. Well, I believe certainly today that documenting 
it today because of the availability of things like computers 
in the field and more abundance of medical personnel with those 
types of ability to be able to put something into the computer 
at that particular point versus 20 years ago, when I was in, 
what was documented, well, we were blown up and we were 
medivaced. I had a toe tag on. We would go to a different unit, 
and then the toe tag comes off, and they create their own 
record, and it comes off, and you go to a different branch. So, 
in my case, I don't know that it is uncommon to be treated by 
all different branches of the military in that particular way, 
but at some point, it just broke down, and I think that that 
problem was still, it probably has to still exist today with 
the amount of people that serve in those, say, Iraq and 
Afghanistan as an example.
    What they are doing to overcome it, I mean, stories are 
stories; they are all out there in the media where 500 
gigabytes of information can be wiped out with the press of a 
button, and that is all those records that go with it, whether 
it is going and seeing the doc for the flu or a battlefield 
injury. That is not just medical issues either; that is line of 
duty things that happen, was it an IED explosion or some type 
of hostile activity that has to be documented that goes into 
that. So I would say it is just as prevalent; it may be even 
more so. But it is has always existed.
    Mr. Runyan. Any of the other two gentlemen have any 
experience with it? No. Because when, we talk about it all and 
a lot of people say, well, it is not that prevalent, but when 
it happens to one veteran, it is a personal issue, and it is a 
100 percent issue at that point, because you are affecting that 
veteran's life 100 percent. Thank you.
    Mr. Hall. That is right. Listen, we deal with people who 
are on active duty and you hear a commanding officer saying 
what an acceptable loss is, you can transfer that today to 
somebody from the National Personnel Records Center or NARA, 
somebody like that, that says, hey, we service millions of 
records, and that is true. And I am not doubting one bit of the 
bang up job that they do with the amount of volumes of paper 
that they deal with, but for some individual, any individual in 
one of those agencies to say, well, we service millions of 
records and so, if we lose a few, that is a pretty good 
percentage. How would you like to be the one? That is, to me, 
any veteran that is denied a benefit because their records are 
lost due to no fault of their own is just unacceptable.
    Mr. Runyan. Mr. McNerney, anything further?
    Mr. McNerney. Sure. I would like to explore a little bit 
the, what the VA's regulations are concerning missing or 
incomplete records. Do you all have recommendations on whether 
those regulations are sufficient or adequate or could be 
improved?
    Mr. Viterna. Yes. Current law is that the VA has a duty to 
assist and the duty is enhanced upon their being unable to 
locate records. But there is a point when that becomes 
definitive, and in some instances, they issue a memorandum that 
essentially says, we have searched, and we have exhausted all 
efforts, and in fact, the record does not exist. But at that 
point, the only thing left is to shift the burden back to the 
veteran. He is still without a remedy, unless there is some 
lessening of the evidentiary burden. The VA can only go so far 
if the records don't exist.
    Eventually, their duty is to abrogate it, and they have 
exhausted it, and you know, they have an enhanced duty to look 
for alternative means to reconstruct records or the like. At 
some point, there has to be a line in the sand that says, we 
have to give up here and make a decision, and they do, and the 
veteran is left with the result.
    Mr. McNerney. Is there a recommendation on how to improve 
that situation?
    Mr. Viterna. Well, just as I had mentioned in terms of 
lessening the evidentiary burden to mimic the combat language 
in the 1154(b) that requires the agency to have clear and 
convincing evidence to the contrary to rebut it, and it is a 
presumption, effectively, so if there are no official records 
to rebut a position that I had this injury in service; there 
isn't any documentation of it--obviously, he still has a 
current disability, but the medical nexus opinion is impeded by 
the fact that they don't really know that that event happened 
in service, so, yeah, you have got an arthritis in your knee, 
but did you really wrench it in service or wrench it at some 
other time? And say the evidentiary burden has to be somewhat 
lessened to make that instance in service accepted as true.
    Mr. McNerney. Thank you.
    Mr. Runyan. Mr. Michaud.
    Mr. Michaud. Thank you, Mr. Chairman.
    I just have one question for Mr. Dumancas.
    On July 18th, the Subcommittee held a hearing on the issue 
of military sexual-trauma, which we explored how veterans who 
suffered from MST-related PTSD have only one in three chances 
of having their claims approved. You talked about the 
challenges of these veterans in your testimony today.
    Can you elaborate further on your testimony on how and why 
VA regulations should be relaxed to improve these outcomes?
    Mr. Dumancas. Yes, sir. What we have experienced is, at the 
RO level, writers are still confused on the regulations, the 
policy that is set in place. And we don't know if it is a lack 
of training or just solid guidance. They are just confused on 
the actual policy, so they are basically just denying it and 
letting the Board of Veterans Appeals handle it. So it comes 
out here to D.C.; we get remanded, and because it is 
frustrating, it is very frustrating, so I hope that answers a 
little bit for you.
    Mr. Runyan. I thank the gentleman.
    And, gentlemen, on behalf of the Subcommittee, I thank you 
for your testimony. I look forward to continuing to work with 
you on these important matters. And you are now excused, and we 
will welcome the second panel up.
    First, we will hear from Mr. Jim Neighbors, Director of the 
DoD-VA Collaboration Office with the Department of Defense. And 
then we will hear from Mr. Scott Levins, Director of the 
National Personnel Records Center, with the National Archives 
and Records Administration. And, finally, we will hear from Mr. 
Alan Bozeman, the Director of the Veterans Benefits Management 
System, with the Department of Veterans Affairs.
    We appreciate all of your attendance today. Your complete 
and written statement will be entered into the hearing record.
    And, Mr. Neighbors, you are now recognized for 5 minutes 
for your oral testimony.

      STATEMENTS OF JAMES G. NEIGHBORS, DIRECTOR, DOD-VA 
COLLABORATION OFFICE, U.S. DEPARTMENT OF DEFENSE; SCOTT LEVINS, 
  DIRECTOR, NATIONAL PERSONNEL RECORDS CENTER, U.S. NATIONAL 
 ARCHIVES AND RECORDS ADMINISTRATION; ALAN BOZEMAN, DIRECTOR, 
 VETERANS BENEFITS MANAGEMENT SYSTEM PROGRAM OFFICE, VETERANS 
  BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

                STATEMENT OF JAMES G. NEIGHBORS

    Mr. Neighbors. Thank you, sir.
    Chairman Runyan, Ranking Member McNerney, Members of the 
Subcommittee, thank you for the opportunity to appear before 
you today, joined by my colleagues from the Department of 
Veterans Affairs and the National Personnel Records Center, to 
discuss current and future efforts to ensure military health, 
personnel, and other records are captured, maintained, and 
shared with the Department of Veterans Affairs.
    My colleagues and I at this table understand that at the 
end of every record is a servicemember, veteran, or family who 
has sacrificed tremendously. DoD leadership is keenly aware of 
the importance of military records as they pertain to the VA 
disability claims process.
    I can appreciate the frustrations of this hearing's first 
panel, which is why it is a top priority of DoD to improve the 
system by which our servicemembers and veterans receive well-
deserved and earned benefits.
    Medical records of all servicemembers--Active Duty, 
Reserve, and National Guard--have been stored electronically 
worldwide by DoD since 2006. These records are centrally stored 
and consistently available as the servicemember moves to a new 
military unit and installation, including deployments, 
throughout their career.
    Like medical records, Active Duty, Guard, and Reserve 
servicemembers' official personal records and other 
administrative data are stored electronically throughout their 
career and available at unit locations. Since 2004, unit 
deployment data has also been electronically collected from the 
military services and stored in the Contingency Tracking 
System.
    Concerning the monitoring of occupational hazards, 
environmental assessments are conducted at deployed locations 
when established and then performed annually to measure the 
air, water, and soil for hazardous agents. Exposures of concern 
are promptly investigated, and, when appropriate, registries 
are created.
    It is DoD policy to transfer servicemember records to VA 
when they leave Active Duty upon retirement or discharge. 
Military service personnel outprocessing centers currently 
transfer personnel, medical, and dental records to VA for over 
300,000 servicemembers annually. A majority of this data is 
also available via electronic interface. For personnel and 
administrative data, this transfer occurs within 7 days of the 
servicemember's retirement or discharge.
    To ensure continuity of care, medical data is available 
realtime through a DoD and VA bidirectional health information 
exchange. Medical professionals and DoD and VA clinicians and 
benefit specialists have access to a very large amount of 
health data on more than 4.6 million military and veteran 
patients.
    With all of this in mind, we recognize there is much more 
to do to improve the complex electronic interface of data 
between DoD and VA. And we are continually collaborating 
through working groups, data-sharing summits, and executive 
forums, working the areas where we need to modify policies, 
processes, and technologies.
    Going forward, our joint vision is to develop a single 
seamless system experience of lifetime services. To realize 
this vision, DoD and VA are currently planning the deployment 
and acquisition of two major efforts: the joint Integrated 
Electronic Health Record, or the iEHR; and the Virtual Lifetime 
Electronic Record, known as VLER.
    The iEHR will unify the two departments' electronic health 
records systems into a common system that will ensure DoD and 
VA's health facilities have servicemembers' and veterans' 
health information available throughout their lifetime. 
Information about injuries and illnesses incurred during 
military service will remain available for health and benefits 
purposes throughout a person's lifetime, supporting patient 
safety, continuity of care, and facilitating expedient access 
to and delivery of benefits.
    VLER is a joint, multifaceted business and technology 
initiative which will allow servicemembers' and veterans' 
electronic administrative and personnel information to be 
synchronized and shared seamlessly between DoD, VA, and other 
appropriate Federal and private-sector health care providers. 
It includes a portfolio of health benefits, personnel, and 
administrative sharing capabilities. When fully implemented, it 
will establish a relationship with servicemembers and veterans 
that begins the day they enter military service and maintains 
that relationship throughout their lifetime, proactively 
providing them with benefits and services.
    DoD is committed to a future that eliminates paper-based 
recordkeeping and the warehouses that support them. Movement 
toward the electronic exchange of information in realtime gives 
DoD and VA the added benefit of improving interagency processes 
based on information requirements and unencumbered by legacy 
forms, manuals, and other paper.
    Mr. Chairman, thank you again for your generous support of 
all services members, veterans, and their families. I look 
forward to your questions.

    [The prepared statement of James Neighbors appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Neighbors.
    And, with that, I will now recognize Mr. Levins for his 
testimony.

                   STATEMENT OF SCOTT LEVINS

    Mr. Levins. Good afternoon, Chairman Runyan, Ranking Member 
McNerney, and Members of the Subcommittee. Thank you for 
calling this hearing and for your attention to issues 
surrounding the management of records which document the 
service of our Nation's veterans.
    I am proud to represent the staff of the National Personnel 
Records Center, many of whom are veterans themselves, and 
pleased to appear before you today to discuss the important 
work the Center does to serve those who have served.
    The NPRC is an office of the National Archives and Records 
Administration. Located in multiple facilities in the St. Louis 
area, the Center stores and services over 4 million cubic feet 
of military and civilian personnel, medical, and related 
records dating back to the Spanish-American War.
    In the mid-1950s, the Department of Defense constructed the 
Military Personnel Records Center in Overland, Missouri. In 
1960, the Center's functions were consolidated and transferred 
to the General Services Administration to be managed by NARA's 
predecessor agency as a single program, leveraging economies of 
scale to improve efficiency and offering a central point of 
access for military service records.
    When the Center was constructed, it was not equipped with a 
fire-suppression system. In 1973, a massive fire at the Center 
destroyed 16 million to 18 million records documenting the 
service of Army and Air Force veterans who separated between 
1912 and 1964. Though the fire occurred almost 40 years ago, 
the Center continues to service approximately 150,000 requests 
per year which pertain to records lost in that fire. When 
responding to fire-related requests, technicians attempt to 
reconstruct the basic service record by using auxiliary 
records, such as pay vouchers, and/or by obtaining documents 
from other official sources.
    In the spring of 2011, NPRC's military records facility 
began a relocation into a new building designed to meet updated 
facility standards for storing permanent records. The 
relocation of records into the new facility was completed last 
month.
    Today, NPRC holds approximately 60 million official 
military personnel folders. Its holdings also include service 
treatment records; clinical records from military medical 
treatment facilities; auxiliary records, such as pay vouchers 
and service name indexes; and organizational records, such as 
morning reports and unit rosters.
    NPRC receives between 4,000 and 5,000 requests each day 
from veterans, their next of kin, various Federal agencies, 
Members of Congress, the media, and other stakeholders and 
responds to 70 percent of these requests in 10 business days or 
less. Nearly half of these requests come from veterans seeking 
a copy of their separation statements, the DD Form 214, because 
they need it to pursue a benefit. The Center responds to 90 
percent of these types of requests in 10 business days or less.
    In addition, the Center receives between 5,000 and 7,000 
requests each week from the VA and other Federal agencies 
requiring the temporary loan of original records. These 
requests are normally serviced within 2 to 3 business days.
    In the case of the VA, nearly every day it provides an 
electronic file which is uploaded into NPRC's system. The file 
is comprised of new requests for the temporary loan of original 
records. At the end of the cycle, when files are returned to 
NPRC, they are placed back into their original locations, and 
barcode technology is used to verify accuracy.
    In instances where NPRC is unable to respond promptly to a 
request, the biggest obstacle is normally our inability to 
retrieve the responsive record. For example, delays may be 
experienced if a file is currently charged out to another 
office, undergoing extensive preservation treatment, or 
determined to have been destroyed in the 1973 fire.
    In instances where a responsive record is not located on a 
first search attempt, the results are analyzed to determine the 
next course of action. In most instances, a verification search 
is conducted by a more experienced staff member. Sometimes this 
involves trying to secure a file that is charged out to another 
agency or actively moving through the order-fulfillment 
process. Other times, it involves analyzing data elements on 
the request to determine if an error has been made by the 
requester--for example, an inaccurate service number, a 
misspelling of the member's name, inaccurate dates of services, 
et cetera.
    In instances where a responsive record cannot be located, 
NPRC technicians will attempt to reconstruct the basic service 
record by using alternate sources of information. Once a 
technician has verified from official sources the dates and 
character of service, they prepare a certificate which can be 
used in lieu of the DD-214 to secure benefits.
    Sometimes the requested records are not located at NPRC. 
Beginning in the early 1990s, the Military Service Department 
stopped retiring medical records, now called service treatment 
records, to NPRC and instead retired them directly to the VA. 
As a result, NPRC does not have direct access to modern service 
treatment records.
    In the late 1990s and early 2000s, with the exception of 
the Coast Guard, the military service departments also stopped 
retiring official military personnel files to NPRC, instead 
retaining them in-house in electronic formats. With the 
excepting of the Department of the Army, the NPRC refers 
requests for these records to the appropriate military 
department for servicing.
    In 2007, the Department of the Army entered into an 
agreement with NARA to allow NPRC to access its electronic 
records for the purpose of responding to requests from veterans 
and other stakeholders. As a result of that decision, NPRC 
referrals to the Department of the Army were reduced by 
approximately 2,500 per month. The Air Force, Navy, and Marine 
Corps continue to service their own personnel records and 
respond to requests from veterans and other stakeholders.
    NARA is eager to work with the Subcommittee and other 
stakeholders to explore opportunities to better serve our 
Nation's veterans. We invite the Subcommittee Members to visit 
NPRC. We welcome suggestions to improve efficiency. And we 
again extend our sincere thanks to the Subcommittee for 
expressing such great interest in the services that NPRC 
provides.
    I am happy to answer any questions you may have.

    [The prepared statement of Scott Levins appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Levins.
    Mr. Bozeman, you are now recognized for your testimony.

                   STATEMENT OF ALAN BOZEMAN

    Mr. Bozeman. Good afternoon, Chairman Runyan, Ranking 
Member McNerney, and Members of the Subcommittee. I am here 
today to discuss the importance of safeguarding the records of 
servicemembers and veterans, particularly as the VBA 
transitions to a paperless claims process.
    Secure electronic records are vital to our transformation, 
providing more timely and accurate decisions to veterans, their 
families, and survivors. VBA is aggressively executing its 
transformation--a series of tightly integrated people, process, 
and technology initiatives designed to eliminate the claim 
backlog and achieve our goal of processing all claims within 
125 days and 98 percent quality in 2015.
    Key to VBA's transformation is ending the reliance on the 
outmoded paper-intensive processes that currently thwart timely 
and accurate claims processing. VA's Records Management Center, 
or RMC, is responsible for approximately 7.5 million inactive 
claims files and service treatment records. It houses 
approximately 7.6 million records and has capacity to hold 
approximately 8.7 million records.
    Both the RMC and the regional offices rely heavily on the 
timely return of records. On average, the RMC receives 300,000 
inactive claims files from ROs and 350,000 STRs from DoD each 
year. Currently, the longest phase in the claims process is 
gathering and awaiting evidence, which takes an average of 229 
days. VBA is working with our stakeholders to receive more 
timely records, which is absolutely critical to our 
transformation.
    To improve the efficiency of the claims process, VA is 
executing a new business model that relies less on the 
acquisition and movement of paper documents. The Veterans 
Benefits Management System, or VBMS, is a business 
transformation initiative supported by technology to improve 
service delivery. The VA recognizes technology is not the sole 
solution to improving performance and eliminating the claims 
backlog; however, it is a critical requirement to our 
transformation. By the end of December 2012, VBMS will be 
deployed to 18 regional offices. Approximately 20,000 users at 
all 56 ROs will be utilizing VBMS by the end of calendar year 
2013.
    The centerpiece of VBMS is a paperless system, which will 
be complemented by other people, process, and technology 
initiatives. The VBMS electronic folder, or eFolder, is the 
electronic equivalent of the VBA paper claims folder. It serves 
as a digital repository of all documents related to a claim, 
and it provides for document uploading and viewing by multiple 
simultaneous users. The eFolder eliminates wait times for 
physical paper folder transport, reduces incidents of lost or 
misplaced paper folders, and provides on-demand access to key 
documentation.
    The VBMS architecture incorporates multiple layers of 
security controls to provide comprehensive protection. Security 
controls are in place to prevent unauthorized access and to 
protect electronic documents from loss from any source of 
disaster or malfunction. VBMS is a modern system engineered to 
the latest standards in information-protection technologies, 
and it will ensure the privacy of sensitive veteran records 
even as access to the system is provided to thousands of VBA, 
Veterans Health Administration, and veterans service 
organizations' authorized users.
    VA understands the importance of securing records. 
Paperless claims processing through VBMS, while maintaining the 
confidentiality, integrity, and availability of the data, is 
critical to our transformation goal of eliminating the claims 
backlog in 2015, ensuring timely and quality delivery of 
benefits and services to our veterans, their families, and 
survivors.
    This concludes my statement. I would be happy to address 
any questions from Members of the Subcommittee.

    [The prepared statement of Alan Bozeman appears in the 
Appendix]

    Mr. Runyan. Thank you very much.
    And I will begin a round of questions. I want to start with 
Mr. Neighbors.
    What is the rationale for handling servicemembers' records 
differently, the personnel records differently from the health 
and dental? Common sense would say if you kept it all one, it 
wouldn't be fragmented.
    Mr. Neighbors. I understand, sir. I do know that the 
rationale that I understand is that different organizations 
within the military services are developing the records. Beyond 
that point, I believe also how they have grown up through time, 
as far as where the records were developed as far as paper-
based now moving into an electronic base, is another piece that 
has possibly kept them apart.
    How we are obviously going into the future, obviously we 
will be aligning and moving those things together. I do 
understand your rationale and your understanding of why that 
makes common sense. It does. Pulling things together and 
ensuring that does make great sense.
    I do know that when we outprocess these servicemembers, 
when the outprocessing center person--they look and ensure that 
all of those records are put into one binder. So, in other 
words, medical, dental, and personnel records, the popular DD-
214, as it is known, all go into one binder as it is shipped 
off then, and the various copies going to the various 
locations.
    As we are moving forward in the electronic age, we are 
going to be moving into a similar kind of arrangement with the 
two that we just talked, the iEHR and the VLER.
    Does that answer your question, sir?
    Mr. Runyan. Yes. I think ``we are getting there'' is the 
key to it.
    Mr. Neighbors. Yes, sir, I understand.
    Mr. Runyan. And, also, what challenges has the DoD 
encountered in implementing the integrated electronic health 
record?
    Mr. Neighbors. I can tell you, sir, that I have viewed what 
we call the initial operating capability timeline, and that 
timeline is being met right now. I know that the initial design 
review has just been met, in fact, just earlier, the 27th 
through the 29th of November.
    It is a large undertaking, there is no doubt. I mean, it is 
billions of dollars to put this into place. I would say, from 
my perspective and from the DoD's perspective, it is an 
endeavor like we have probably not done on the business side 
before, other than what we have done within the DoD itself. We 
have actually brought DoD together, I think.
    And while we are working very closely with the VA and 
partners and getting there, it is--I don't want to say, 
necessarily, challenging, but it is pulling cultures together, 
obviously, between our two organizations.
    I would also say that moving forward and using commercial 
capability and bringing in the different sources of material, 
as far as what actual software and things that we use, while 
not a challenge, it is very complex, I guess I would say.
    So to answer your question, I think, the most succinctly 
would be the complexity of where we are trying to go with all 
of this and moving it forward.
    Mr. Runyan. But no significant technology roadblocks or 
anything?
    Mr. Neighbors. To my understanding, sir, the technology and 
the actual framework that we are moving from is, again, toward 
the initial operating capability, is moving forward.
    Mr. Runyan. Okay.
    And if I could touch on one other thing. There has been a 
great deal of media attention surrounding DoD--and I talked 
about this with Mr. Hall in the last panel--particularly 
getting records of in-service events in combat.
    What is the DoD doing to address this issue to make sure 
that we have that information from the point of the incident?
    Mr. Neighbors. I understand, sir. When a person is actually 
in a combat zone, there are very specific systems--each one of 
the services has a system that does collect and understand 
where units and individuals in those units--and that is Active 
Duty, Guard, and Reserve--when they are actually in theater at 
different base camps and locations.
    That data is then rolled together and brought into a very 
specific system called the Contingency Tracking System. Again, 
it has been around--if I go back, I think around 2004 we 
actually put that into place, and it has been moving forward.
    On the Reserve component side, we also have what is called 
the Reserve Component Common Personnel Data System, which 
tracks their movement and everything also, and then reports all 
of this data into the Defense Manpower Data Center, where all 
of it is coalesced into one place. That data is then made 
available to VA and other organizations, too.
    Mr. Runyan. Okay.
    Mr. Levins, you testified about how the Army participates 
in an information exchange with NPRA. Can you elaborate, what 
is your experience of why the other branches aren't part of 
that same process?
    Mr. Levins. When the National Personnel Records Center was 
established in the 1950s through the year 1999, it was funded 
through appropriations from Congress. Beginning in the year 
2000, that changed, and we are now funded through 
reimbursements from the services for the work that we do them. 
So there is continuous pressure on us to try to keep our costs 
down, and the services all try very much to keep their bill 
down.
    As the services went to electronic records, all of them, 
including the Army, decided that they would retain the 
electronic records and service those requests themselves. And 
after a couple years of doing that, a backlog of requests had 
been generated at the Department of the Army, and they reversed 
this decision and permitted us, at least on a pilot, to begin 
servicing those requests on their behalf using their electronic 
records. That began in 2007, and that continues today.
    Mr. Runyan. Are you aware of any backlogs with the other 
services?
    Mr. Levins. I can't speak for any backlogs at the other 
services.
    Mr. Runyan. Thank you.
    With that, I yield to the Ranking Member, Mr. McNerney.
    Mr. McNerney. Thank you again, Mr. Chairman.
    And I want to thank you guys. This is a tough business. 
There are a lot of records, a lot of new data coming in, and 
everyone wants the same thing. So there is no question about 
that. But you can hear our frustration in how long this is 
taking, and we just want to work together to get to the best 
result.
    Mr. Bozeman, in earlier testimony, the American Legion 
pointed out the lack of plans in regards to scanning documents 
into the VBMS. Did you have a comment on that?
    Mr. Bozeman. Thank you, Ranking Member McNerney. Yes, I 
would love to take the opportunity to talk about that.
    As you know, over the summer, we ordered two contracts for 
scanning vendors, two commercial contracts, to scan documents 
and convert paper documents into VBMS.
    I am happy to say that, as of today, both vendors are up 
and running. We have 13 stations on VBMS right now actively 
receiving images from both vendors. They have scanned at this 
point over 250,000 documents of various sizes with a vast 
amount of images into those stations. It is working well. They 
have good quality, good timeliness.
    You also mentioned the BDD claims as well. Both stations 
that process BDD claims, Winston-Salem and Salt Lake, Salt Lake 
is fully in VBMS already; Winston-Salem comes on next week, 
December the 10th. So we will be able to address not only BDD 
claims but the larger claims volume.
    Mr. McNerney. So you feel that there is a real 
comprehensive plan in place for completing the scanning 
process?
    Mr. Bozeman. Yes, sir, I feel very confident in our 
scanning operation at this point. Yes, sir.
    Mr. McNerney. So how come the VA doesn't want to go ahead 
and purchase the scanning equipment? Is there a cost advantage 
to having contractors doing it? Is it any more accurate?
    Mr. Bozeman. Sir, I am not sure about any cost benefits, 
per se. But I can speak to the fact that through the help of 
NARA, actually, we have local scanning capabilities at each 
regional office for small-volume scanning. It is not 
necessarily our passion or our desire to be a full-time 
scanning operation; we are much more interested in processing 
claims and lowering the backlog.
    We also have a scanning operation at the Records Management 
Center that can assist with not only STRs, BDD claims as well, 
and other operations we see that are critical to knocking down 
the backlog for BVA.
    Mr. McNerney. So you feel it is a more efficient use of 
VA's resources to use contractors than to have the VA focus on 
continuing the--
    Mr. Bozeman. At this point in time, I do, sir. Ultimately, 
where we want to get is electronic records.
    Mr. McNerney. Right.
    Mr. Bozeman. So we want to get out of the business of 
converting paper. And as we move toward receiving electrons, 
not only from DoD but our various stakeholders, that is the 
ultimate place we want to be as an organization. It is more 
efficient, it is more timely, it is more accurate. And that is 
what we need to beat the backlog for VBA by 2015.
    Mr. McNerney. Do you think the accurate and timely flow of 
information from the DoD to the VA is going to be improved 
significantly then?
    Mr. Bozeman. So I think I am encouraged by some of the 
collaboration efforts we have done over the past 6 months 
especially. As Mr. Neighbors pointed out, we have a series of 
meetings; we have had multiple data-sharing and collaboration 
meetings. I am encouraged by some of the early results. It is 
complex, as Mr. Neighbors stated. I don't think we are there 
yet, but I think we are on a good path to get to there 
ultimately.
    We have a platform that can receive those records within 
VBMS, a content management service that allows uploads not only 
from veterans, veterans service organizations, through 
eBenefits or the stakeholder portal, but ultimately we can 
receive information from DoD as well. We are on that path. And 
I think it is going to be a long, hard road, but I think we can 
get there, sir.
    Mr. McNerney. What happens when the DoD doesn't cooperate 
or doesn't have proper inputs? I don't know how you deal with 
that exactly.
    Mr. Bozeman. Well, with VBMS, sir--thank you for your 
question--with VBMS, we have the capability to process both 
electronic and paper. Again, we prefer electronic records, but 
we cannot totally eliminate the need for paper. We are always 
going to receive paper.
    So if we don't receive electronic records, we will still 
process claims that we receive in paper and convert them to 
electrons. Ultimately, again, we want to receive electronic 
records. So I don't think it is a matter, necessarily, of 
cooperation, but if the capability does not exist, then we will 
process, as we do now, within VBMS, but we will have to convert 
the paper to electrons.
    Mr. McNerney. You are going to always have a need for some 
amount of scanning.
    Mr. Bozeman. Yes, sir. I believe so.
    Mr. McNerney. All right.
    Thank you, Mr. Chairman. I yield back.
    Mr. Runyan. Mr. Michaud?
    Mr. Michaud. Thank you, Mr. Chairman.
    Mr. Neighbors, how will the loss of unit-level records be 
addressed during a servicemember's outprocessing?
    Mr. Neighbors. I am going to have to take that one as a 
question for the record. I don't want to give you imperfect 
information. I do know that the individual manager that would 
look at the person's record would identify any gaps. Now, I 
think to your question, though, how do we fill those gaps is 
something I would like to get back to you, if I could.
    Mr. Michaud. Okay.
    Mr. Neighbors. But I do know that they are looking for 
completeness of a record, again, with medical-dental unit and 
other items. So if you would, sir, I would like to take that 
back, and I will get an answer for you.

    [The attachment appears in the Appendix - Attachment A]

    Mr. Michaud. Okay, yes.
    And you mentioned in your testimony that when a 
servicemember is outprocessed for transition or retirement, 
their combat records and outpatient records are reviewed for 
completion. When was that instituted?
    And what steps are taken in a record that is found to be 
incomplete? Do you let the servicemember or the VA know that it 
is incomplete?
    Mr. Neighbors. Multiple questions I heard, sir. The first 
one is as to how and when this document takes place. I know 
there is a DoD instruction that covers exactly what the person 
is supposed to do. Again, when that actually took place, I have 
the document here, I could take a look and actually get that 
date for you.

    [The attachment appears in the Appendix - Attachment B &C]

    Mr. Michaud. Okay.
    Mr. Neighbors. I do know that it is consistent across all 
the services. And there are actually paperwork items that we 
have to sign and have slapped on top of the documents 
themselves so the VA knows that it is certified complete.
    Now, that completion, that certification, I should say, is 
of known records, that, to the best of our knowledge, 
everything that we have known is part of this record. I will 
say that where the servicemember has an obligation, let's say, 
Guard and Reserve specifically, if a servicemember--not 
``specifically,'' any servicemember--but where it hits, I 
think, is the Guard and Reserve a lot of times. They will go 
out and they will go to the private side, and they will get 
some sort of service they need. It is the obligation of that 
servicemember that when they are reactivated, that they have to 
bring those medical records back to that unit so that they can 
be collated and put in.
    I will tell you that is an area, though, of challenge for 
us, is getting servicemembers to come back in when they are 
reactivated and bring all that documentation in and have it 
reentered into the central repository. We are working that.
    I will be honest, as Mr. Bozeman said, we have an ongoing 
forum that we meet very regularly on. That was one of the items 
that VA brought forward that they needed us to do. And we are 
working it as a policy issue with the services right now to 
ensure that all that data is collected and that they are going 
out and actually making sure that the servicemembers are doing 
that.
    Does that answer your question, sir?
    Mr. Michaud. Yes. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Runyan. I thank the gentleman.
    I actually have a couple more questions real quick, the 
first one being for Mr. Levins.
    We know that there was a recent incident involving 
misplaced records at your facility, and there is an ongoing 
investigation in this incident. Can you elaborate on, from a 
managerial perspective, how you have tried to mitigate that, 
before we have actually come through with the outcome of the 
investigation itself?
    Mr. Levins. Yes. As you are aware from the briefings that I 
provided to your staff over the summer, there was an incident 
in July where a temporary employee unlawfully removed 
approximately 250 documents from our holdings.
    Upon hearing this, I was appalled. And I can tell you that 
the Archivist of the United States, as a Navy veteran himself, 
to say he was angry is an understatement.
    And as you noted, this is still under investigation, and my 
understanding is that the person charged is going to face 
criminal charges for this. So I can't go into a whole lot of 
detail about it.
    But some of the things that we have done is, number one, we 
have implemented exit screening at our facility in St. Louis. 
We had already had that in place in our Washington, D.C. areas, 
and with the large volume of permanent records in St. Louis, it 
was time to implement that out there. So now all employees of 
NARA and all visitors to the Center, when they exit the 
building, they have to allow the guards to look through their 
bags and so forth to make sure they can't walk out of the 
building with any documents.
    We were able to recover the documents promptly, and we were 
able to--because we have a tracking system that tracks all the 
reference requests to which we respond, we were able to bounce 
those documents off of our production system to determine if 
any requests had been made for those records and determine any 
impacts. And, fortunately, we were able to determine that no 
veterans were adversely impacted by the temporary absence of 
those documents from those records.
    We also developed a more robust auditing procedure in that 
division of the Center so that, you know, if something like 
this occurs, we will find it, you know, before documents are 
actually missing.
    Mr. Runyan. Thank you for that.
    I also have quick questions for Mr. Bozeman.
    When do you anticipate we will start seeing measurable 
results with the VBMS system?
    Mr. Bozeman. Thank you, Mr. Chairman, for your question.
    Release 3.5 of VBMS was deployed on November the 5th. After 
that, we deployed to 10 additional stations full up on what we 
consider the national deployment-level software. We anticipate 
we will start to see good results because that software gives 
us the capacity to truly process claims in VBMS. So I would say 
early in 2013 we will start to see results from those claims as 
those stations come on board.
    We will have 18 stations full-blown into VBMS by the end of 
the calendar year. So I would look for that early in 2013 to 
start seeing measurable results of people on the full-blown 
system of software.
    Mr. Runyan. Okay. Thank you.
    And to follow up on the question Mr. McNerney was asking 
about your scanning contracts, can you provide the amount of 
the inventory, the duration of the contracts and the monetary 
value of the contracts.
    Mr. Bozeman. I will take it. I believe those are 1-year 
contracts with option years. I am not certain of the exact 
specifics of the contract, so I can take the remainder of that 
for the record to verify.

    [The attachment appears in the Appendix - Attachment A]

    Mr. Bozeman. The value of the contracts between the two 
vendors I believe is $22 million and $23 million, respectively, 
between the two.
    And the--I am sorry, I forgot the third part of your 
question, sir.
    Mr. Runyan. You got duration. Inventory?
    Mr. Bozeman. Yes. The inventory, sir, the base--we 
anticipate 60 million images per month between the two vendors.
    Again, it is competitive, so the vendor that shows greater 
quality and timeliness, we can direct more work to that vendor 
to build efficiencies in the system. That is why we are excited 
about the prospects of the way this system is set up between 
the two vendors.
    Again, at the height of the contract, we expect 60 million 
images per month.
    Mr. Runyan. Thank you all very much. On behalf of the 
Subcommittee, I thank you for your testimony. We welcome 
working closely with you in addressing these important issues 
that have such an impact on our American veterans.
    And you are all now excused. Thank everyone for being with 
us today to discuss this important topic.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include any 
extraneous material.
    Hearing no objection, so ordered.
    Mr. Runyan. I thank the Members for their attendance today.
    And this hearing is now adjourned.

    [Whereupon, at 4:01 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman
    Good afternoon and welcome everyone. This oversight hearing of the 
Subcommittee on Disability Assistance and Memorial Affairs will now 
come to order.
    I called today's oversight hearing to discuss an important yet 
often overlooked aspect of the veterans' benefits process - access to 
various service department records. Such records are often necessary, 
and vital, for a veteran to prove their claim. As Chairman of DAMA, I 
am troubled by information regarding the handling of records that has 
come to my attention.
    In today's environment, as we shift from paper records to a digital 
environment, important questions arise regarding what the best 
practices are for making this transition.
    For example, agencies such as the VA and the National Archives and 
Records Administration, or NARA, must engage in a daunting cost-benefit 
analysis to determine what records should be digitized, and how this 
process should take place.
    Similarly, the Department of Defense must determine the best way to 
maintain digital records in various environments, from DoD hospitals to 
combat zones.
    Further, all three agencies must continue to work together to 
ensure that veterans' records are initiated, maintained, and 
transferred as efficiently as possible.
    Today, that is the aspect that we'd like to focus on - the 
efficiency of the records management process.
    As many of you may already be aware, the records management process 
begins with DoD. Veterans depend on DoD to properly note certain in-
service events, whether in the veteran's individual service medical and 
personnel records, or in unit histories.
    Issues pertaining to the thoroughness of DoD's recordkeeping have 
recently received media attention in light of evidence that some units 
were not properly documenting in-service events, such as combat related 
incidents. This has been a source of significant frustration for many 
veterans who file claims with VA and are dependent on such 
documentation to substantiate their claims.
    For those records that are properly maintained by DoD, custody of 
certain records is then turned over to the Archives, although different 
branches of service have different policies and procedures. The 
National Archives and Records Administration maintains millions of 
military personnel, health, and medical records for discharged and 
deceased veterans of all services.
    Although the Archives recently began receiving access to digital 
records from the Army, they do not have full digital access to the 
other branches of service. In addition, the agency still maintains a 
full warehouse of paper records from older generations of veterans. As 
all agencies that handle such vast amounts of paper know, there are 
challenges associated with maintaining both digital and paper records.
    The Archives has recently faced some challenges with respect to the 
maintenance and security of veterans' records. I would like to invite 
NARA to continue an open dialogue with this Committee so the most 
effective procedures for managing veterans' records can be implemented.
    Turning to the role of the VA, the agency has a statutory duty to 
assist a claimant in obtaining certain records. Accordingly, it is 
important that we work together to ensure that VA is able to 
communicate both effectively and efficiently with both the Archives and 
DoD to comply with this duty.
    In addition, VA is also in the process of making important 
decisions about how veterans' records and claims folders are handled in 
a digital environment, as they continue their transition over to the 
electronic Veterans Benefits Management System, or VBMS.
    While we all have high hopes for VBMS, we must not overlook one of 
its essential functions, which is the process for scanning and 
converting veterans' records.
    Before I conclude, I would again like to emphasize that our goal 
today is to ensure that the entire chain of command, from DoD, to the 
Archives, to VA, handle veterans' records with the utmost care and 
respect.
    Often, a single record or notation can be the difference in whether 
a veterans' disability claim is granted or denied. This is why we must 
work together to ensure that no records are lost, overlooked or 
otherwise unable to be associated with an individual disability claim.
    I welcome today's witnesses to continue this ongoing discussion and 
offer their own specific recommendations on how to improve upon the 
veterans records management process, particularly now as we work to 
transition into a digital environment.
    I would now call on the Ranking Member for his opening statement.

                                 <F-dash>
              Prepared Statement of Hon. Jerry McNerney, 
                       Ranking Democratic Member
    Thank you, Mr. Chairman, for holding today's hearing about 
Veterans' records, and how the VA is managing its transition to a 
paperless system and new technologies.
    We've all read the recent news articles regarding lost, inaccurate 
and mishandled Veterans' records at the hands of the DoD and VA, as 
well as their struggles in recapturing this data once it is lost or 
improperly recorded. I am deeply troubled about these incidents. This 
is unacceptable.
    Congress hears complaints of lost, missing, destroyed or 
unassociated files all too often. Information affecting a Veteran's 
claim should be better protected by those charged with its care. 
Accountability needs to occur at the management level and with 
individual employees who handle the day-to-day influx of information.
    Veterans and their families should not be burdened with the 
responsibility of re-creating lost files or providing multiple copies 
of records that once were in the DoD and VA's possession.
    I also remain troubled about the more than 1.3 million claims and 
appeals that are languishing in VA's flawed processing system--in an 
organization with a current management culture that often over-
emphasizes production over quality. It is imperative that we make 
comprehensive performance improvements to the system while ensuring 
accurate and accountable claims outcomes for our Veterans.
    I know that VA is taking great pains in this direction. However, 
today, like many Veterans and stakeholders, I cannot say that I have 
confidence that the VA is in complete control over these processes.
    I have met with too many Veterans who have had to wait years for an 
initial decision on their benefits. I have heard too many unfortunate 
stories of Veterans who suffer as a result of VA temporarily closing 
poor performing Regional Offices for retraining, like the Oakland RO 
that serves Veterans in my district. While the average days pending for 
most claims is 255 days; in the Oakland RO, it is a mind-blowing 425.8 
days.
    I know VA ROs such as Waco and Los Angeles are experiencing similar 
delays. In fact these delays are systemic because 67% of all claims and 
appeals are in backlog status and nearly 25% will be done erroneously.
    Why the disparity? Why the protracted delays?
    Since 2007, the VBA has added over 11,000 claims processing 
personnel and Congress has funded these requests. Yet the backlog still 
climbs. The VA OIG concluded that in order to change these outcomes, VA 
needs to enhance policy guidance, compliance oversight, workload 
management, training and supervisory review in order to improve claims 
processing operations.
    These conclusions do not change. The year may be about to change 
but the issues are the same-- the backlog is just a symptom of the 
problem. The current system is broken and in need of a major overhaul.
    We need to focus on getting the claim right the first time--as if a 
do-over is not an option. We need to get this right so that no claims 
are languishing and Veterans, their families and survivors get the 
benefits that they have earned and deserve without delay.
    I am somewhat enthused by some of VA's latest technology 
undertakings, including e-Benefits and its Stakeholder portals. 
However, I remain concerned that again some of VA's efforts move 
forward without direction, like a rudderless rowboat.
    VA needs a comprehensive plan with a clear vision and mission as 
many of the stakeholders indicate in their testimonies. To date, we 
still have not received the VBA Transformation Plan that VA Under 
Secretary Hickey promised at our hearing in June of this year.
    Today's witnesses will provide us with greater insight on these 
systemic problems--including how Veterans and their dependents are 
harmed when VA and DoD mishandle their documents and how improvements 
can be made. I hope to hear testimony and responses that reflect VA's 
solemn duty to deliver its benefits mission using world-class 21st 
century inputs that focus on Veterans ahead of processes.
    Thank you, Mr. Chairman, and I yield back my time.

                                 <F-dash>
                 Prepared Statement of Richard Dumancas
    Chairman Miller, Ranking Member Filner and distinguished Members of 
the Committee:

    Thank you for this opportunity to come before you today to discuss 
the importance of the data component in the Department of Veterans 
Affairs (VA) efforts to transform the claims processing system for the 
21st century and beyond. The much beleaguered claims system has been 
under harsh criticism for quite some time as VA has struggled under a 
massive backlog of claims and tried to work towards a system that could 
deliver earned benefits to veterans in the timely manner they deserve. 
If VA is to climb out from under this mountain of claims utilizing the 
new features of the Veterans Benefits Management System (VBMS) 
paperless processing environment, the way in which they manage 
veterans' data is going to be one of the most important factors in 
determining success.
    Working with the veterans' data will present several challenges. 
First and foremost is the entryway to this paperless processing 
environment, how will VA deal with transferring information on paper 
into a digital world? Second, VA will have to deal with the management 
of the electronic records even though the real world data is divided 
amongst a confusing number of sources, particularly for Guard and 
Reserve component veterans. Finally, even though VA has an extensive 
history of dealing with lost data and many regulations to account for 
the fact that military record keeping is not always what it should be, 
these regulations are not always uniformly enforced at the Regional 
Office (RO) level and VA will need to address this lack of consistency 
as they move forward and deal with the new challenges presented in the 
electronic operating environment.
Scanning and Submission of Evidence - the Entry Point into VBMS
    Perhaps the most critical component to the success of the new 
electronic tolls provided by VBMS in serving the needs of disabled 
veterans filing for earned benefits is the quality of the data 
available, and that demands attention to detail at the first step - 
scanning the veterans' data. Unfortunately, there is at best vague 
information about how VA plans to move forward with the scanning 
component, and at worst a morass of chaos and uncertainty. The American 
Legion would like to see a clearer road map laying out VA's plans for 
transforming data to electronic data presented in a transparent manner.
    Scanning is already required as a part of intake at ROs utilizing 
the VBMS system. Furthermore, the Benefits Delivery at Discharge (BDD) 
sites in Salt Lake City, UT and Winston-Salem, NC also require scanning 
as this key transition program also operates in an entirely electronic 
environment. However, developments at the BDD sites raise troubling 
questions about VA's plans to go paperless nationwide in the coming 
year.
    At this time, there is no contract in place at either BDD site for 
scanning, so new claims are not being entered into the pool of claims. 
While one employee referred to this as ``a temporary benefit'' as it 
allowed everyone to catch up on the backlog of claims at the BDD sites, 
any long term view of the situations must recognize the growing backlog 
of claims building up waiting to be scanned. Like a dike bursting open 
to let the floodwaters through, these claims will overwhelm the 
resources as soon as a contract is in place.
    At a hearing before the full House Committee on Veterans Affairs on 
June 19th, Mr. William Bosanko, Executive for Agency Services, National 
Archives and Records Administration (NARA) indicated there was no long 
term contract in place for scanning at VA Regional Offices. The 
contracts that had been in place were for a much smaller scale than 
expansion to all ROs. The most recent contract had been for only five 
locations. There have been no subsequent indications of future long 
term plans for the scanning provided.
    What is most troubling about the scanning portion of the data chain 
within VA is not the myriad questions about the quality of optical 
character recognition (OCR) and how searchable the documents will be, 
although those questions are certainly important. What is deeply 
troubling is that the scanning is so obviously a key component and 
there has been little to no public indication from VA about the road 
forward. As concerned stakeholders, The American Legion can only wonder 
as to the size and nature of future log jams building up which could 
devastate the process for veterans in the future.
    The American Legion urges VA to present a clear road map for the 
way forward on the scanning component so all concerned stakeholders can 
understand that this critical data component is no longer a weak link 
in the data chain. There are other more pressing data concerns to worry 
about, but it is hard to give them focus when there are so many 
outstanding questions about the basic steps at the front door to the 
entire process.
Data Location - Finding Government Records
    Obviously, the ability to communicate the critical data between 
governmental entities such as the Department of Defense and VA is 
essential to a smooth claims process. To catalogue the litany of 
complaints about delays in the development of a Virtual Lifetime 
Electronic Record (VLER) between VA and DOD would be so lengthy as to 
obfuscate almost any other discussion. Suffice to say stakeholders such 
as The American Legion have a long history addressing the unacceptable 
lack of clear communications.
    In the 21st century, the ability of the DOD and VA to maintain a 
simple, common record for service members from their date of induction 
all the way through their military and civilian careers until 
internment in a veterans' cemetery should be a given, not a question. 
Rather than add to the existing mountain of concerns about the lack of 
a consistent electronic nature, The American Legion will simply state 
there must be a renewed commitment to getting VLER back on schedule and 
implemented with all due haste.
    However, there is another concern regarding the difficulties in 
communicating service member data that is often overlooked when 
discussing the communication problems between VA and DOD and that is 
the widely distributed nature of information and records for members of 
the National Guard and Reserve components.
    As the last decade of warfare has clearly shown, the National Guard 
and Reserve components are an integral and highly utilized component of 
our nation's military structure. However, record keeping for these 
components still lags deeply in the past century. At times, over 40 
percent of the deployed forces in Iraq and Afghanistan have been Guard 
or Reserve component members. Over 650,000 National Guard and Reserve 
members have deployed since September 11, 2001 with many of those 
service members deploying multiple times over the last decade.
    Yet for a variety of reasons, consolidating the vital data for 
these service members is a far more challenging task, and that fact has 
presented difficulties for a number of veterans when it comes time to 
file a claim.
    Anecdotally, one National Guardsman The American Legion came into 
contact with told this tale of the difficulties he had run into. In 
2005, the veteran in question underwent a Medical Evaluation Board/
Physical Evaluation Board (MEB/PEB) process and was ultimately 
discharged from the military due to a spinal injury sustained in 
service. The veteran filed their own claim with VA within a couple of 
months after discharge, and didn't seek representation for the claim at 
the time stating ``I had just gotten discharged for the injury, how 
hard can this be?'' After approximately ten months, the veteran finally 
received an initial denial of benefits from VA as they could not find a 
variety of records associated with the claim. This was all still within 
a year of being medically discharged from the Army.
    The veteran sought help from The American Legion at this point, and 
filed an appeal with a Decision Review Officer (DRO) at the Regional 
Office. During the course of this appeal, which took over an additional 
year, it became clear that the veteran's records were split over 
multiple locations. There were still records located in the country the 
veteran deployed to. There were records in Landstuhl, Germany where the 
veteran had stopped over while being medically evacuated. There were 
records with the National Guard bureau in the veteran's home state. 
There were records with the active duty division that had commanded the 
Task Force the National Guard unit had operated under. There were 
records in the National Personnel Records Center (NPRC) in St. Louis, 
and there were records in the hospital at the military base the service 
member was sent to while on medical hold.
    It was not until the complicated process of DRO review that these 
records were all consolidated and considered that the veteran was 
finally granted service connection - for a spinal injury that had 
provoked their discharge from the Army. Obviously this is a somewhat 
extreme example, but it illustrates the major challenge Guard and 
Reserve component veterans face in seeking disability service 
connection from VA. Their records exist piecemeal and spread over a 
multitude of locations. When confronted with seeking out service 
records with a single request to NPRC or with a legwork intensive 
process of tracking down multiple units, commands, and records sources, 
what is an overworked employee with limited time to devote to a single 
claim in the face of a massive backlog more likely to lean towards?
    American Legion representatives who have conducted site visits at 
ROs through the Regional Office Action Review (ROAR) process have seen 
flow charts prepared for VA employees to assist determining where to 
find Guard and Records. This is a positive step forward, and VA needs 
to build upon this step.
    The American Legion believes better training on records location 
with those of their employees who develop claims could help with the 
problem of scattered records, but ultimately, there needs to be a 
better consolidation process for this information. Furthermore, this 
consolidation should be considered as part of the VLER project as VA 
and DOD work together to create a unified record for service members. 
This is too important to be tacked on as a later consideration; it must 
be a ground level, fundamental building block of the new VLER.
    The heavy utilization of Guard and Reserve members is not going 
away. In fact, with deep cuts looming for active duty personnel levels 
in the coming decade it is clear the Guard and Reserve will be a 
critical component of the nation's defense structure for the 
foreseeable future. They must stop being an afterthought in the 
logistical side when it comes to safeguarding their vital records and 
communicating that information to the necessary other agencies of 
government.
Implementing the Rules and Regulations on the Books
    The idea that the military sometimes struggles with record keeping 
is not a new one. There are already multiple rules and regulations on 
the books to deal with situations where records are either incomplete 
or not present. Whether it has been challenges in the past such as the 
St. Louis fire of 1973, the confusion inherent in combat zones, or even 
records that could help validate a veteran's claim that have been 
destroyed by regulation, there are rules on the books or in the works 
that address the known fact that sometimes the key information is not 
present in the record.
    Despite instructions to give special attention to alternate means 
of establishing information such as ``buddy statements,'' photographs 
and newspaper clippings, veterans are still often stonewalled by the a 
finding that the events are ``not reflected in the service record.'' 38 
USC Sec.  1154 recognizes the lack of consistent record keeping in 
combat and states `` . . . the Secretary shall accept as sufficient 
proof of service-connection of any disease or injury alleged to have 
been incurred in or aggravated by such service satisfactory lay or 
other evidence of service incurrence or aggravation of such injury or 
disease, if consistent with the circumstances, conditions, or hardships 
of such service, notwithstanding the fact that there is no official 
record of such incurrence or aggravation in such service, and, to that 
end, shall resolve every reasonable doubt in favor of the veteran.''
    Recently, with regard to Posttraumatic Stress Disorder (PTSD), VA 
has relaxed internal regulations to concede the occurrence of stressor 
incidents when a diagnosis of PTSD exists and the stressors described 
are similarly consistent with the circumstances and conditions of 
combat. This was done not solely for those who could prove combat 
through awards such as a Purple Heart or Combat Infantryman Badge 
(CIB). This was extended theater wide for war zones, as recognition of 
the modern battlefield's asymmetrical nature, where clear lines of 
battle no longer existed.
    During the period of consideration of the new regulations 
surrounding PTSD, arguments were made to further extend the concession 
of stressors to cases of Military Sexual Trauma (MST) when there was an 
existing diagnosis because MST survivors had similar challenges in 
establishing the occurrence of stressors. Perhaps cruelly, records of 
sexual trauma in the military are often expunged by regulation after a 
period of three years, making it impossible down the road for a veteran 
to obtain any record of the event. The American Legion continues to 
urge Congress to press for the relaxation of stressor requirements for 
MST survivors to match those afforded to combat veterans and to rectify 
this inequity.
    However, even though VA's own rules afford great benefit of the 
doubt to veterans with lost records, at the RO level the application of 
these regulations is inconsistent at best. In fact, some RO employees 
have stated the regulations are ``confusing'' and ``something for the 
Board [of Veterans Appeals] to handle, not us . . . ''
    This can be corrected with better training at the RO level and 
clear direction from VA Central Office (VACO) that these rules are 
important. The American Legion has long contended that training on all 
levels at the RO must be made more robust and better tailored to 
correct known deficiencies. The handling of claims with missing data is 
certainly an area where VA's training could use improvement.
Conclusion
    In conclusion, The American Legion is deeply concerned about the 
lack of a clear plan forward regarding the scanning process, one of the 
most critical components of the shift to a paperless, electronic 
environment. The Legion urges VA to work with the stakeholders in the 
Veterans Service Organizations and Congress to develop a plan and make 
it transparent so all concerned can help ensure this portion of the 
process does not needlessly cripple later actions in the VBMS 
environment.
    As progress moves forward on VLER, The American Legion urges VA and 
DOD to ensure the Guard and Reserve records are an integral part of 
this consolidation from the beginning, and in the meantime urges VA to 
work diligently to ensure their employees at all levels understand the 
challenges inherent in tracking down records for the Guard and Reserve 
component.
    Finally, The American Legion recognizes VA's own regulations to 
deal with lost records as indicative of the intent of this government 
to truly work to help veterans; even when through no fault of their own 
records are lost, as they can often be in a large bureaucracy like the 
military. However, the implementation of these regulations still leaves 
much to be desired in terms of consistency, yet with attention to 
training and enforcing consistency, VA could go a long way towards 
helping the unfortunate veterans whose records have been lost or 
destroyed.
Executive Summary
    The American Legion is concerned with three key parts of VA's 
handling of electronic data in the new paperless environment.

    1. No clear plan for scanning.
       a. VA has no clear, public plan for dealing with the scanning 
component of the VBMS, which is the gateway to much of their later data 
concerns
       b. The BDD sites currently have no scanning contract, and new 
claims are building up behind this like a tidal wave behind a logjam. 
This needs to be corrected.

    2. Lack of coordination of data and communication with DOD, 
especially regarding Guard and Reserve component service members.
       a. Guard and Reserve records often wind up in multiple locations 
and can be confusing to track down.
       b. Guard and Reserve records must be a top priority for 
coordination with VLER and any data communication with VA and DOD
       c. VA employees need better training on tracking down records 
for these service members

    3. Uneven application of existing regulations regarding absent or 
incomplete military records.
       a. VA has several regulations on the books to deal with 
incomplete or absent records, but they are inconsistently implemented
       b. VA's regulations on PTSD stressors for combat should also be 
extended to MST victims
       c. VA needs to enhance their training and consistency in 
implementation on these regulations.

                                 <F-dash>
                Prepared Statement of Michael R. Viterna
Statement of the Problems
    As a threshold matter, we would like to place the issue of 
veterans' benefits in the perspective it deserves. Benefits for 
veterans are unlike any other Federal benefit program and reflect 
Congressional intent to award ``entitlements to a special class of 
citizens, those who risked harm to serve and defend their country. This 
entire scheme is imbued with special beneficence from a grateful 
sovereign.'' \1\ Veterans have earned certain benefits from their 
military service and a paper driven system of records and a lack of 
service department records are impediments, if not preclusive, to the 
receipt of those benefits.
---------------------------------------------------------------------------
    \1\ Bailey v. West, 160 F.3d 1360, 1370 Fed. Cir. 1998); see also 
Jaquay v. Principi, 304 F.3d 1276, 1286 (Fed. Cir. 2002) (en banc); 
Hensley v. West, 212 F.3d 1255, 1262 (Fed. Cir. 2000).
---------------------------------------------------------------------------
I. Transitioning to a Paperless Technology for Veteran Records
    NOVA applauds VA's efforts to transition from a paper driven system 
of records to a paperless environment. While we recognize the magnitude 
of such an effort, we nevertheless want to be on the record encouraging 
VA to effectuate this transition in an expeditious manner. We are 
concerned, however, that any system implemented allows real time and 
complete access to a veteran's VA records, and will include the ability 
to file documents electronically in the same manner as that given 
claimant advocates by the Social Security Administration. Such access 
is not only necessary for advocates to effectively represent claimants 
before VA, but ultimately will greatly improve the time requirements 
and efficiency of processing claims.
    First, fewer VA personnel will be required to not only handle the 
incoming and outgoing correspondence, but the inquiries by veterans 
and/or their representatives will also be significantly reduced.
    Second, most veterans have multiple claims being processed at the 
same time. Often, these claims are at different stages of development, 
adjudication or appeal and each is dependent upon a single paper VA 
case file. For instance, a veteran may have a claim on appeal before 
the Board in Washington, D.C., have another being processed in the 
appeal section at the local VA Regional Office, and yet another claim 
in the initial stages of development. If the paper file is physically 
with the Board in Washington, the Regional Office typically cannot 
process other claims until the record is returned to that office. \2\
---------------------------------------------------------------------------
    \2\ A claim for an increased disability rating may be an exception 
as new medical evidence regarding the current level of disability may 
be obtained and considered without benefit of the complete paper file.
---------------------------------------------------------------------------
    In addition, an electronic record system can include sufficient 
redundancies to virtually preclude lost or misplaced files as is 
currently a problem.
    NOVA is willing to work with this Committee and with VA in the 
implementation of a paperless record system that will ensure real time 
and complete access to the advocates who represent claimants before VA.
II. Lack of Military Service Records
    NOVA has been asked to address the impact of lost military service 
records upon the filing of a veteran's disability claim with VA.
    A claim for VA disability compensation is dependent upon complete 
and accurate service department records because, to be successful, a 
claimed disability must arise from an in-service event. Under the law, 
establishing service connection generally requires (1) medical evidence 
of a current disability; (2) medical or, in certain circumstances, lay 
evidence of in-service incurrence or aggravation of a disease or 
injury; and (3) medical evidence of a nexus between the claimed in-
service disease or injury and the present disability. \3\ It is the 
second prong for establishing entitlement that we will be discussing, 
the in-service incurrence or aggravation.
---------------------------------------------------------------------------
    \3\ See Hickson v. West, 12 Vet.App. 247, 253 (1999); Caluza v. 
Brown, 7 Vet.App. 498, 506 (1995), aff'd per curiam, 78 F.3d 604 
(Fed.Cir.1996) (table); see also Heuer v. Brown, 7 Vet.App. 379, 384 
(1995).
---------------------------------------------------------------------------
    The value of accurate and complete service records cannot be 
overstated in terms of its role in the fair adjudication of a veteran's 
claim for disability benefits. ``[I]n the context of veterans' benefits 
where the system of awarding compensation is so uniquely pro-claimant, 
the importance of systemic fairness and the appearance of fairness 
carries great weight.'' Hodge, 155 F.3d at 1363. In the absence of 
these records, the burden unfairly shifts to the veteran to obtain 
alternative evidence, universally recognized to be of lesser probative 
value, or the result is a denial of benefits rightly earned.
    The government's loss of service records poses difficult, if not 
insurmountable, obstacles for a claimant in proving the in-service 
incurrence element of his or her disability claim. These records 
include evidence of medical treatment, involvement in a mishap, travel, 
potential environmental exposure, and performance reports, among 
others.
    Service medical records (SMRs) may document the occurrence of a 
disease or injury as well as treatment for any resulting medical 
condition. These SMRs will become incontrovertible evidence in 
establishing the in-service incurrence element of a veteran's claim and 
can also demonstrate the chronicity of the claimed condition. Travel 
records most commonly are used to demonstrate where a veteran served. 
This evidence is often lacking for temporary duty assignments but can 
be critical in establishing presence in an area of conflict (Vietnam) 
to specific sites where dangerous environmental exposure was later 
established (Camp Lejeune). In addition, performance and disciplinary 
records can serve to demonstrate behavioral changes that may be 
indicative of the onset of a psychiatric disability.
    The following statutes deal with the evidence used in VA claims 
processing:

       38 U.S.C. Sec.  1154. Consideration to be accorded time, place, 
and circumstances of service. (emphasis added).
       (a) The Secretary shall include in the regulations pertaining to 
service-connection of disabilities (1) additional provisions in effect 
requiring that in each case where a veteran is seeking service-
connection for any disability due consideration shall be given to the 
places, types, and circumstances of such veteran's service as shown by 
such veteran's service record, the official history of each 
organization in which such veteran served, such veteran's medical 
records, and all pertinent medical and lay evidence . . . .
       (b) In the case of any veteran who engaged in combat with the 
enemy in active service with a military, naval, or air organization of 
the United States during a period of war, campaign, or expedition, the 
Secretary shall accept as sufficient proof of service-connection of any 
disease or injury alleged to have been incurred in or aggravated by 
such service satisfactory lay or other evidence of service incurrence 
or aggravation of such injury or disease, if consistent with the 
circumstances, conditions, or hardships of such service, 
notwithstanding the fact that there is no official record of such 
incurrence or aggravation in such service, and, to that end, shall 
resolve every reasonable doubt in favor of the veteran. Service-
connection of such injury or disease may be rebutted by clear and 
convincing evidence to the contrary. The reasons for granting or 
denying service-connection in each case shall be recorded in full.
       38 U.S.C. Sec.  5107(b). Claimant responsibility; benefit of the 
doubt. (emphasis added).
       (b) Benefit of the doubt. The Secretary shall consider all 
information and lay and medical evidence of record in a case before the 
Secretary with respect to benefits under laws administered by the 
Secretary. When there is an approximate balance of positive and 
negative evidence regarding any issue material to the determination of 
a matter, the Secretary shall give the benefit of the doubt to the 
claimant.
    In terms of quality of proof and in spite of the statutory and 
regulatory provisions in place, none of these alternatives come close 
to service department records in terms of credibility and probative 
value. SMRs documenting treatment for an injury, disease or condition, 
for example, are indisputable proof of in-service incurrence. On the 
other hand, use of lay evidence for proving an in-service incurrence is 
problematic in several regards and is often simply not feasible. For 
example, providing buddy statements in support of a claim can be 
difficult or impossible to obtain given the years of separation between 
the event in service and date of claim. In addition, locating a fellow 
service member years after service separation can be very difficult and 
recollections can fade.
    No matter how obtained, a buddy statement would thereafter be 
subject to a credibility determination by VA. In practice, VA 
adjudicators are frequently skeptical of lay statements prepared by the 
Veteran or a buddy well after the alleged in-service incurrence despite 
the applicable VA regulations and the body of case law that speaks to a 
claimant's ability to provide statements regarding symptoms capable of 
lay observation. \4\
---------------------------------------------------------------------------
    \4\ See Falzone v. Brown, 8 Vet.App. 398, 406 (1995); and Layno v. 
Brown, 6 Vet.App. 465, 469-70 (1994) (lay evidence is competent to 
establish features or symptoms of injury or illness). See 38 U.S.C. 
Sec.  5103A(d)(2) (Secretary is to take into consideration all lay or 
medical evidence of record, including statements of claimant).
---------------------------------------------------------------------------
    In theory, lay assertions may serve to support a claim for service 
connection by relating the occurrence of lay-observable events or the 
presence of disability or symptoms of disability subject to lay 
observation. 38 U.S.C. Sec.  1153(a); 38 C.F.R. Sec.  3.303(a). In 
practice, however, lay evidence is frequently not sufficient to 
establish an in-service incurrence. Early on, the U.S. Court of Appeals 
for Veterans Claims concluded that it is clear ``[t]he regulations 
regarding service connection do not require that a veteran must 
establish service connection through medical records alone.'' \5\
---------------------------------------------------------------------------
    \5\ Triplette v. Principi, 4 Vet.App. 45, 49 (1993), citing 
Cartright v. Derwinski, 2 Vet.App. 24, 25 (1991). Over the succeeding 
years, the Courts have further refined the import and applicability of 
lay statements. See e.g., Jandreau v. Nicholson, 492 F.3d 1372 (Fed. 
Cir. 2007); Buchanan v. Nicholson, 451 F.3d 1331, 1336 (Fed.Cir. 2006) 
(addressing lay evidence as potentially competent to support presence 
of disability even where not corroborated by contemporaneous medical 
evidence).
---------------------------------------------------------------------------
    The Veteran's Claims Assistance Act of 2000 Pub. L. No. 106-475, 
Sec.  3(a), 114 Stat. 2096, 2097-98 (2000) (VCAA) was intended to 
``reaffirm and clarify the duty of the [Secretary] to assist a claimant 
for benefits under laws administered by the Secretary, and for other 
purposes.'' H.R. REP. 106-781 at 4 (2000). It is well-established that 
VA has a duty to ``make reasonable efforts to assist a claimant in 
obtaining evidence necessary to substantiate the claimant's claim.'' 38 
U.S.C. Sec.  5103A(a)(1). This duty is abrogated if ``no reasonable 
possibility exists that such assistance would aid in substantiating the 
claim.'' See 38 U.S.C. Sec.  5103A(a)(2) Whenever VA attempts to obtain 
records in federal custody, ``efforts to obtain those records shall 
continue until the records are obtained unless it is reasonably certain 
that such records do not exist or that further efforts to obtain those 
records would be futile.'' Id.
Implications for Veterans
    If its efforts in obtaining records are unsuccessful, VA then has a 
duty to inform the claimant of the records that could not be obtained, 
explain the efforts expended to obtain those records, and describe any 
further action to be taken by VA in respect to that claim. It is at 
this point that the burden is shifted to the veteran to use his own 
resources and employ alternative means to support his claim, as 
described supra. Unfortunately, in the absence of corroborating service 
records, veterans are either denied the benefits sought or the 
adjudication of the claim(s) is significantly delayed, as expressed in 
the examples that follow.

    1. Roy Johnson

    Mr. Johnson performed military duty from November 1967 to November 
1969 and was assigned to the 57th Maintenance Company in Thailand. His 
duties involved the repair of small arms, but some artillery as well. 
On some occasions, he traveled via military aircraft from Bangkok to 
Saigon to pick up weapons for repair.
    Years after service, Mr. Johnson developed one of the disabling 
conditions known to be related to Agent Orange, which was used in 
Vietnam. In April 2003, VA denied his claim for entitlement to service 
connection, because there were no service records to document this 
veteran's travel into Vietnam. The National Archives and Records 
Administration responded to VA that ``[u]nfortunately, the 57th 
Maintenance is one of those units for which we do not have any 
records.'' In addition, the National Personnel Records Center responded 
that the Veteran's service in Vietnam was ``not a matter of record.''
    Under VA regulations, the mere presence in Vietnam entitles a 
veteran to service connection if certain disabling conditions manifest 
themselves at any time after service. 38 C.F.R. Sec.  3.307(a)(6). Mr. 
Johnson could not, however, establish his presence in Vietnam through 
service records.
    In support of his claim, the veteran submitted a buddy statement 
from an individual who served with him in Thailand and Vietnam. Despite 
this corroborating evidence, VA continued to deny the claim and Mr. 
Johnson continued to appeal. His claim was subsequently presented to 
the U.S. Court of Appeals for Veterans Claims where a joint motion for 
remand occurred in March 2006 due to the presence of errors in how VA 
had previously adjudicated his claim. Upon remand, the veteran obtained 
pay records for his overseas service that showed he had paid no federal 
income taxes for several months, purportedly due to his ``flying over 
Thailand.'' The matter again returned to the Court and VA's denial was 
ultimately reversed in an August 10, 2010 single judge decision 
(Johnson v. Shinseki, slip op 09-1192). The Court found that there was 
no negative evidence refuting the Veteran's assertions that he traveled 
on temporary duty to Vietnam, but that there was evidence in support of 
his claim. Of special note was the receipt of combat pay for a few 
months of his overseas duty. The Court went on to note that under 
Executive Order 11216, Vietnam, not Thailand or any other country for 
that matter, was designated as a combat zone during the time period 
relevant to this appeal. Accordingly, the Court took the rare step of 
reversing VA's denial of benefits finding that ``the only permissible 
view of the evidence is contrary to the Board's (Board of Veterans' 
Appeals) decision.''
    While Mr. Johnson ultimately was granted the benefits he sought, 
his journey lasted more than nine years from the time his claim was 
filed until VA actually implemented the Court's decision. No official 
records were located documenting the veteran's service in Vietnam. The 
veteran took his own steps and obtained a buddy statement in support of 
his claim, but this was not sufficient. Finally, he was able to locate 
pay records that documented his presence in a combat zone, thereby 
verifying his presence in Vietnam, such that benefits were awarded, 
albeit by judicial order.

    2. Charles Johnson

    Mr. Johnson served from 1953 until 1957. Records of his service 
were destroyed in the 1973 fire at the National Personnel Records 
Center (NPRC). In November 1992, he sought entitlement to service 
connection for a number of medical conditions that he asserted had 
their onset during service. Due to a lack of evidence, VA denied the 
veteran's claims but he appealed, which resulted in a remand from the 
Board in April 1995 to permit additional development of evidence. The 
matter returned to the Board, where it was remanded again in 1998 with 
orders to the VA Regional Office (VARO) to attempt to obtain ``daily 
sick reports'' or similar documents. NPRC responded that it had no 
medical records on file. In December of 1998, the Board remanded the 
matter for the third time, instructing the VARO to contact the United 
States Armed Services Center for Research of Unit Records (USASCRUR) 
and the Office of the Surgeon General. USASCRUR responded that it did 
not maintain morning reports from 1954 and the Surgeon General 
responded negatively as well.
    Over the years, Mr. Johnson has submitted lay statements from 
friends and family that attest to the onset of his disabilities, but 
all have been discounted by VA. It is now 20 years later and the 
matter, for the third time, is before the Veterans Court.

    3. Albert Drake

    Mr. Drake served for 28 years in the U.S. Navy, retiring in 
February 1980. While in service, the veteran served for seven years as 
a nuclear reactor operator, participated in atomic/nuclear testing 
exercises, and served aboard several nuclear submarines.
    In 1988, the veteran developed skin cancer, with multiple 
additional malignancies manifesting in the years that followed. He was 
diagnosed with thrombocytopenia in 2005. Skin cancer is recognized by 
VA to be a radiogenic disease, while his thrombocytopenia is not. A 
radiogenic disease is defined by VA regulations to be a disease that 
``may be induced by ionizing radiation.'' See 38 C.F.R. Sec.  
3.311(b)(2)(i)-(xxiv). He subsequently made claims for entitlement to 
service connection, but was denied in April 2003. In support of his 
claim, Mr. Drake submitted two medical opinions from dermatologists 
linking his skin cancer to the radiation exposure in service, one of 
which also linked his thrombocytopenia to ionizing radiation exposure. 
One doctor noted that the veteran had a history of multiple skin 
cancers on both sun exposed and non sun exposed areas. The veteran was 
raised in the Pacific Northwest, had no other radiation exposure 
outside service, and had no family history of skin cancer. In 
consideration of all the evidence, the veteran's private doctor went on 
to opine that ``[t]his distribution is typical for radiation 
exposure.''
    In assessing the veteran's case, VA's Chief Public Health and 
Environmental Hazards Officer looked to the Navy's documentation of his 
exposure to ionizing radiation from 1957 until 1962. Based upon the 
recorded dosage, the VA doctor opined that ``it was unlikely'' that the 
veteran's claimed conditions can be attributed to occupational exposure 
to ionizing radiation in service.
    In this instance, the veteran has alleged that his exposure to 
ionizing radiation was greater than documented by the Navy. He has 
stated that he served on nuclear submarines as late as 1976, while Navy 
records show his ionizing radiation exposure ended in 1962. As a 
consequence of this discrepancy, VA concluded that his radiation dose 
estimate was lower than the thresholds established that produce 
service-connected disabilities. Effectively, because official records 
did not document all of this veteran's occupational radiation exposure, 
VA has denied his claims. This matter has been on appeal for nearly ten 
years and is currently before the Veterans Court.
    These examples do not reflect isolated cases. We have learned from 
the Vietnam Veterans of America, for instance, that in 3,956 issues 
remanded for veterans they represented between 2003 and 2001, military 
service records were missing in 954 issues. \6\
---------------------------------------------------------------------------
    \6\ 325 due to missing service medical and unit records, 3,984 to 
obtain missing U.S. Army and Joint Services Records Research Center 
(JSRRC) records, and 245 for missing personnel records.
---------------------------------------------------------------------------
    NOVA willingly offers to assist this Committee and VA in efforts 
undertaken to draft legislation to lessen the evidentiary burden for 
those veterans whose claims are adversely impacted by lost, missing or 
nonexistent military service records. This language could model that of 
Section 1154(b), as applies to veterans engaged in combat. Also, VA's 
fulfillment of its duty to assist by obtaining relevant records under 
38 U.S.C. 5103A should be subject to reasonable timeliness standard.

    What Should Be Done:

    1. VA should, in an expeditious manner, continue the transition 
from a paper record environment to that of a paperless system that 
assures full access to a veteran's VA file by his or her appointed 
representative. We would encourage VA to model the advocate's access 
after that used by the Social Security Administration.

    2. Require the Department of Defense to take immediate steps to 
keep adequate field records and reconstruct, to the extent possible, 
lost or nonexistent field records.

    3. Introduce legislation to lessen the standard of proof for 
establishing in-service incurrence by modifying 38 U.S.C. Sec.  1154 
for veterans whose claims are impacted by lost, missing or nonexistent 
military service records. Additionally, language should be put in place 
to require VA to expeditiously fulfill its duty to assist as outlined 
in 38 U.S.C. Sec.  5103A(a)(1).
Conclusion
    NOVA offers to work with the Committee and VA to develop language 
to lessen the evidentiary burden for those veterans whose records were 
lost or destroyed through no fault of their own, where that evidence 
was necessary to establish the ``in-service incurrence or aggravation 
of a disease or injury'' required for an award of service connection.
Executive Summary
    The National Organization of Veterans' Advocates, Inc. (NOVA) is a 
not-for-profit 501(c)(6) educational membership organization 
incorporated in the District of Columbia in 1993. NOVA represents 
approximately 500 attorneys and agents assisting tens of thousands of 
our nation's military Veterans, their widows, and their families to 
obtain benefits from the Department of Veterans Affairs (VA). NOVA 
members represent Veterans before all levels of VA's disability claims 
process. In 2000, the U.S. Court of Appeals for Veterans Claims 
recognized NOVA's work on behalf of Veterans with the Hart T. Mankin 
Distinguished Service Award. NOVA currently operates a full-time office 
in Washington, D.C.
    NOVA willingly offers to work with Congress and VA in efforts 
undertaken to: (1) ensure an expeditious transition of veteran paper 
files to a paperless technology that assures full access to a veteran's 
VA file by his or her appointed representative (Social Security 
Administration model); (2) establish and maintain accurate and complete 
service department records by requiring the Department of Defense to 
take immediate steps to keep adequate field records and reconstruct, to 
the extent possible, lost or nonexistent field records; and (3) draft 
language to lessen the evidentiary burden for those veterans whose 
records were lost or destroyed through no fault of their own, where 
that evidence was necessary to establish the ``in-service incurrence or 
aggravation of a disease or injury'' required for an award of service 
connection by modifying 38 U.S.C. Sec.  1154 and requiring VA to 
expeditiously fulfill its duty to assist by obtaining relevant records 
as outlined in 38 U.S.C. Sec.  5103A(a)(1).
    Veterans have earned certain benefits from their military service 
and a paper driven system of records and a lack of service department 
records impede, if not preclude, the receipt of those benefits. NOVA is 
willing to work with this Committee and with VA in the implementation 
of a paperless record system that will ensure real time and complete 
access to a veteran's VA records and will include the ability to file 
documents electronically. Such access is necessary for advocates to 
effectively represent claimants before VA, and ultimately will greatly 
improve the time requirements and efficiency of processing claims.
    The impact of lost military service records upon the filing of a 
veteran's disability claim with VA is significant. A claim for VA 
disability compensation is dependent upon complete and accurate service 
department records because, to be successful, a claimed disability must 
arise from an in-service event. The value of accurate and complete 
service records cannot be overstated in terms of its role in the fair 
adjudication of a veteran's claim for disability benefits. In the 
absence of these records, the burden unfairly shifts to the veteran to 
use his own resources to obtain alternative evidence, universally 
recognized to be of lesser probative value. In the absence of 
corroborating service records, veterans are either denied the benefits 
sought or the adjudication of the claim(s) is significantly delayed.
    The National Organization of Veterans' Advocates (NOVA) wants to 
thank the Subcommittee Chairman, the Ranking Member, and members of the 
Subcommittee for the opportunity to testify about the disability claims 
process at the Department of Veterans Affairs (VA). NOVA is honored to 
share our views for this hearing, ``Wading through Warehouses of Paper: 
The Challenge of Transitioning Veterans Records to Paperless 
Technology.''
    NOVA is a not-for-profit 501(c)(6) educational membership 
organization incorporated in the District of Columbia in 1993. NOVA 
represents more than 500 attorneys and agents assisting tens of 
thousands of our nation's military Veterans, their widows, and their 
families to obtain benefits from VA. NOVA members represent Veterans 
before all levels of VA's disability claims process. This includes the 
Veterans Benefits Administration (VBA), the Board of Veterans' Appeals 
(BVA or Board), the U.S. Court of Appeals for Veterans Claims (Veterans 
Court or CAVC), and the U.S. Court of Appeals for the Federal Circuit 
(Federal Circuit). In 2000, the CAVC recognized NOVA's work on behalf 
of Veterans when the CAVC awarded the Hart T. Mankin Distinguished 
Service Award.
    NOVA operates a full-time office in Washington, D.C. Accompanying 
me today is our Executive Director, David Hobson, who will assist this 
Subcommittee and staff with any follow-up questions regarding VA's 
record keeping processes and the processing of disability claims when 
necessary service records are either lost or destroyed.
    One of NOVA's regular functions is monitoring and commenting on VA 
rule making. In this regard, NOVA routinely submits comments on changes 
to Title 38 Regulations. This is an area of close scrutiny. NOVA also 
files challenges at the Federal Circuit in response to VA rule making 
when we believe veterans' interests are adversely affected. NOVA has 
addressed this Committee previously and appreciates the opportunity to 
do so again. The positions stated in this testimony are approved by 
NOVA's Board of Directors and represent the shared experience of NOVA's 
members in representing our veterans and their families in their 
pursuit of VA benefits.
    NOVA's goals today are to work with Congress and VA in taking steps 
to ensure a successful and complete transition of veteran paper files 
to a paperless technology and to ensure accurate and complete service 
department records are made and maintained with open access to all 
qualified representatives of veterans. Additionally, we will suggest a 
means to lessen the evidentiary burden for those veterans whose 
disability claims depend upon service department records that are 
deemed lost or destroyed.
    NOVA will present an overview of experiences and lessons learned 
from representing veterans and will provide several examples of what 
some veterans have had to endure when their service records have been 
lost or destroyed or perhaps did not exist in the first place. We will 
describe the hardships and delays that resulted. We will show how 
veterans are required to go to extensive efforts to prove their claim 
when, under the law, the Agency is required to give a veteran the 
benefit of the doubt. We also will describe some common scenarios of 
what a veteran must do to obtain evidence to substitute for service 
records.

                                 <F-dash>
                 Prepared Statement of Jeffrey C. Hall
    Chairman Runyan, Ranking Member McNerney and Members of the 
Subcommittee:

    Thank you for inviting DAV to testify at today's hearing examining 
how veterans' military records are collected, maintained, transferred 
and preserved by the Department of Veterans Affairs (VA), the 
Department of Defense (DOD) and the National Archives and Records 
Administration (NARA), as well as the status and future plans of all 
three agencies transitioning from paper records to digital records. I 
am pleased to offer some perspectives on how problems managing this 
massive volume of paper records have resulted in delays and denials for 
many veterans, and contributed to the enormous backlog of claims for 
veterans benefits.
    Since 1920, DAV has offered free representation to veterans, their 
dependents and survivors seeking benefits and services from VA and 
other government agencies. In this capacity, DAV National Service 
Officers (NSOs) focus on educating injured and ill veterans about their 
benefits and the claims process, assisting them with filing claims for 
benefits and then by advocating on their behalf to ensure they receive 
all the benefits and services they have earned through their service. 
DAV has the nation's largest service program, with 100 offices located 
throughout the United States and in Puerto Rico and a corps of 
approximately 240 NSOs and 30 Transition Service Officers (TSOs). DAV 
provides free representation to veterans and their families with claims 
for benefits from the VA, the DOD, and other government agencies, 
representing more veterans than all other accredited veterans service 
organizations (VSOs) combined. Last year, DAV NSOs and TSOs assisted 
nearly a quarter million veterans and their families with their claims, 
obtaining over $4 billion in new and retroactive benefits. By helping 
veterans file more complete and accurate applications for benefits, DAV 
and other VSOs assist VA by reducing their workload and ensuring more 
accurate claims decisions.
    Mr. Chairman, in order for veterans to begin receiving the benefits 
and services to which they are entitled, whether for disability 
compensation, vocational rehabilitation, employment, health care or 
other services, VA must first have sufficient evidence of their 
military service and usually their medical history as well. The 
integrity of the entire benefits claims system is only as strong as the 
integrity of the evidentiary records supporting these claims. Thus, 
proper custody of military personnel and medical records is essential 
to the accurate and timely adjudication of veterans claims for 
benefits.
    Most of the records needed to satisfy benefits claims are held in 
the constructive custody of the federal government, primarily by DOD, 
VA or NARA. Some crucial records may be held by State governments for 
those who have served in National Guard units. In addition, veterans 
often have private medical records that may be crucial to proving their 
claims. Whenever there are problems or delays in locating any of these 
essential records, veterans, their families and their survivors suffer. 
Having worked for almost two decades for DAV, most of that time in the 
field helping thousands of veterans with their claims, I have seen how 
lost or misplaced records lead to unjust decisions and unacceptable 
delays. I also know from my own military service that medical records 
can be lost even from the earliest moments after injuries occur, 
particularly when those injuries occur on the battlefield.
    While serving in the United States Army in 1991, I was wounded 
outside of Kuwait City during the first Gulf War. I was medically 
evacuated by the United States Marine Corps, operated on by the United 
States Navy and hospitalized and air lifted home by the United States 
Air Force. After I arrived at Ft. Sam Houston, I learned there was no 
record of my arrival, and when I went to Division Headquarters the 
following day I was also told there was no record of my having been 
wounded or of my return. I went to the base hospital with no medical 
records and had to provide the details of my medical situation, which 
were then verified by examination. I did not know at the time that my 
records were missing, lost or otherwise, or that I would never be able 
to locate the records in the future. I never knew what medical 
procedures were performed because there is no record. Later I was 
informed the records would probably never be recovered because they 
were likely destroyed instead of being transported home. Whether this 
loss of medical records will one day lead to delay or denial of a VA 
benefit for me or my family remains to be seen, but there are literally 
thousands of veterans who have already been hurt by lost or misplaced 
records. Here are just a few recent examples from DAV's service files.
    In May 2011, a United States Marine Corps Reservist and Operation 
Enduring Freedom (OEF) combat veteran filed his original claim for 
disability compensation with the VA regional office (VARO), claiming 
nine (9) disabilities, including traumatic brain injury and post-
traumatic stress disorder. Nearly six months later, VBA acknowledged 
his claim by sending him a letter in November 2011, which indicated his 
claim would be assigned to a special team and expedited. However, no 
further action was taken on the claim until DAV contacted the VARO on 
March 29, 2012 to inquire about the claim's status. At that point, our 
NSO also apprised the VARO that there was nothing in the claims file or 
VA system indicating that the veteran's service medical records (SMRs) 
had been requested.
    On April 3, 2012, our NSO was notified by the VARO that the 
veteran's claim was originally brokered to VA's training academy in 
Baltimore for initial development and then returned to the VARO. 
However, apparently no development had taken place until after our 
March 2012 contact, which is when the VARO requested all of the 
necessary medical examinations as well as the veteran's SMRs from VA's 
Records Management Center in St. Louis. All examinations were completed 
and associated with the veteran's file on May 11, 2012; however, as of 
August 2012, the case had not yet been sent to the VARO rating board 
for action. Upon inquiry, our NSO was informed by the VARO that while 
the examinations were completed, the VARO still had not received the 
veteran's SMRs from his Marine Corps Reserve unit and a follow up 
letter had been sent to the unit the previous day. The VARO did 
indicate that the claim might have moved faster if the veteran had his 
own copies of his SMRs. Latest information indicates the veteran 
recently made contact with his Reserve unit and was told his records 
would be sent to the VARO. As of this date, there is still no 
indication that the SMRs have been received or what, if any, further 
action has been taken since he spoke with his Reserve unit. What is 
clear however, is that this OEF combat veteran filed his original claim 
for disability benefits more than a year and half ago, and even today a 
decision still has not been made because his SMRs have never been 
obtained and reviewed.
    There are many veterans who have been deployed to places such as 
Iraq or Afghanistan and the absence of service medical records is 
absolutely detrimental to a veteran's history and possible entitlements 
later. This is compounded when the case involves veterans, especially 
combat veterans of World War II, Korea or Vietnam, when technology or 
battlefield documentation pales in comparison to that of today. 
Unfortunately, the absence of records has often led to erroneous, 
inaccurate rating decisions from VA or extraordinarily lengthy delays 
in processing time. In the case of a combat veteran, such as the USMC 
Reservist previously mentioned, the law is clear under title 38, United 
States Code, section 1154(b):

       ``In the case of any veteran who engaged in combat with the 
enemy in active service . . . during a period of war, campaign, or 
expedition, the Secretary shall accept as sufficient proof of service-
connection of any disease or injury alleged to have been incurred in or 
aggravated by such service satisfactory lay or other evidence of 
service incurrence or aggravation of such injury or disease, if 
consistent with the circumstances, conditions, or hardships of such 
service, notwithstanding the fact that there is no official record of 
such incurrence or aggravation in such service, and, to that end, shall 
resolve every reasonable doubt in favor of the veteran.

    In some cases, it is the VARO that loses or misplaces veterans 
records. I was supervising a DAV field office several years ago where a 
veteran who was permanently and totally disabled and homeless was 
assisted by one of our NSOs in filing his claim for non-service 
connected pension, which is an income-limited benefit. The original 
claim was filed directly with the VARO in July 2004 with DAV as the POA 
holder; however, nearly nine months later, in April 2005, there was no 
status of the claim in VA's system, nor any record that the VARO had 
ever received the claim. Since our NSO physically submitted the claim 
in person, we had a date-stamped copy of our cover letter verifying the 
claim had been received by VA. However, when our NSO presented the copy 
to the VARO, it indicated that our VA date-stamped copy was not 
sufficient evidence that the veteran had filed the claim in July 2004 
because the original document was not in the veteran's file. Ultimately 
the claim was granted but restitution of the nine-month gap back to the 
date of the original claim had to be resolved through the appellate 
process. Following a multitude of conversations with various VARO 
officials, including a Decision Review Officer, Service Center Manager, 
and Director and months of inactivity, the veteran's earlier effective 
date was granted by the Board of Veterans' Appeals four years from the 
time that the claim had been filed.
    In another case, DAV represented an Air Force veteran who served 
during the Vietnam War in 1967 but did not file his claim for 
disability benefits until four decades later, in 2008. Initially the 
jurisdictional VARO requested the veteran's service medical and 
personnel records from the National Personnel Records Center (NPRC) and 
a medical examination was completed. The VARO compiled the veteran's 
service personnel records (SPRs), VA examinations and a multitude of 
private medical evidence. The case was reviewed but his claim was 
denied. In reviewing the denial decision, DAV's NSO quickly realized 
that the veteran's SMRs had not been considered because they were not 
in his claims file. According to information in the file, the VARO had 
sent a second request to the NPRC for the records but was informed by 
NPRC that the veteran's SMRs had previously been sent at the time of 
the original request. The VARO, however, had no record of receiving 
them or putting them in the veteran's file. Whether these crucial 
medical records were sent by NPRC together with the veteran's SPRs or 
separately is not clear; however, the VARO did receive the personnel 
records from the NPRC, so it seems more likely than not that NPRC also 
sent the SMRs. Nonetheless, the VARO made a formal finding that the 
SMRs were unavailable and notified the veteran that any further efforts 
to secure those records would be futile. Eventually, the case made it 
to the Board of Veterans' Appeals, where a decision was reached in 
October 2012 to remand the case back to the VARO to make further 
attempt to locate the veteran's SMRs, get a more recent VA examination, 
and ultimately reach a new decision. But without SMRs the VARO is 
likely to once again deny this claim. All of these examples involve 
systemic problems still occurring today, which could be significantly 
reduced, perhaps even eliminated, once there are paperless claims 
processing and record management systems in place at VA, DOD and NARA.
    Mr. Chairman, vital military records can be lost in many ways. In 
my case, treatment records were lost before they even reached an Army 
records center. Medical and personnel records can be lost or misplaced 
inside military record centers, including at National Guard records 
centers in each of the fifty states, or at the NPRC in St. Louis, or 
during transit from the NPRC to a VARO, or at the VARO itself. Today 
there are tens of millions of military personnel files at the NPRC; a 
number that would be significantly higher were it not for the 
catastrophic fire in 1973 that destroyed about one-third of the 52 
million military personnel files housed there at that time. There are 
also currently more than four million veterans' claims files containing 
DOD personnel and military records stored at VA's 57 regional offices 
and the NPRC. The maintenance and security of these paper files remains 
a significant challenge.
    For example, this past August, the VA Office of Inspector General 
reported on claims folder storage at the Winston-Salem VARO and 
concluded that the volume and manner in which the folders were stored 
``impeded VARO productivity,'' ``increased [the] risk of loss or 
misfiling,'' and ``exposed [them] to potential water and fire damage.'' 
In fact, an engineering load-bearing study determined that the massive 
mountain of files piled ceiling high in the VARO ``exceeded the 
capacity of the floor by approximately 39 pounds per square foot,'' 
risking a structural failure.
    There are important goals that VA, DOD and NARA must simultaneously 
pursue in order to eliminate or minimize problems associated with lost 
or misplaced military records: improve management of paper records and 
archives, convert paper records into digital records, and develop new 
digital records storage and processing systems. This Subcommittee has 
spent considerable time over the past four years overseeing VA's 
efforts to transform its claims processing system into a modern, 
intelligent, paperless IT system, and there are some signs that 
progress is beginning to be made.
    The problems plaguing the VBA claims process have been well 
documented: the number of claims filed each year is growing; the 
complexity of claims filed is increasing; the backlog of claims pending 
is staggering; and the quality of the claims decisions remains far too 
low. Over the past dozen years, the number of veterans filing claims 
for disability compensation has more than doubled, rising from nearly 
600,000 in 2000 to 1.4 million in 2012; and in 2013 VBA expects to 
receive another 1.4 million claims. VBA's workload has more than 
doubled, but its workforce has grown by just over 50 percent, rising 
from 13,500 full-time employee equivalents (FTEEs) in 2007 to 20,750 
FTEE today. Even with the hiring of thousands of new employees, the 
number of pending claims for benefits, often referred to as the 
backlog, continues to grow.
    As of November 26, 2012, there were 899,540 claims for disability 
compensation and pensions awaiting decisions by VBA. Compared to the 
past two years, that is an increase of about 20% or 150,000 pending 
claims. Over the past year, VBA's expanded capabilities and efforts 
have slowed the backlog growth, and the level of the backlog rose only 
three percent over the past year. However, the number of claims pending 
longer than 125 days, VBA's official target for completing claims, has 
more than doubled over the past two years, rising from 255,678 on 
November 29, 2010, to over 600,000 today. At present, more than two-
thirds of all claims pending have been at VBA for more than the target 
of 125 days and the average time it takes VBA to process claims is now 
more than 250 days. But more important than the number of claims 
processed is the number of claims processed correctly. The VBA quality 
assurance program, known as the Systematic Technical Accuracy Review 
(STAR), which is publicly available on VA's ``ASPIRE'' Dashboard, shows 
that over the most recent 12-month period ending in August 2012, VBA's 
rating accuracy has been 86.1 percent, a slight improvement over the 
prior year, although during the most recent three-month period that 
error rate rose slightly.
    While attention remains focused on the size of the VBA claims 
backlog, it is important to recognize that eliminating the backlog does 
not necessarily reform the claims processing system, nor does it 
guarantee that veterans will be better served. The backlog is a 
symptom, not the root cause of VBA's claims processing problems. In 
order to achieve real and lasting success, the VBA must remain focused 
on creating a claims processing system that is carefully designed to 
decide each claim right the first time.
    Recognizing that its infrastructure was outdated and ineffective, 
and that a rising workload could no longer be managed, VBA leadership 
in 2010 determined that it would be necessary to completely and 
comprehensively rebuild and modernize its claims infrastructure and 
processes. The Secretary of Veterans Affairs established an ambitious 
goal of zero claims pending more than 125 days, and all claims 
completed to a 98 percent degree of accuracy standard, and VBA outlined 
a three-year strategy to achieve that goal. Notwithstanding the fact 
that the VBA has attempted to modernize its claims processing system 
without success numerous times over the past half century, there are 
hopeful signs of progress.
    VBA's latest transformation efforts began with a comprehensive 
review of the existing claims process, which included extensive 
outreach to VSOs. VBA launched dozens of experimental pilot programs 
and initiatives to test changes that might streamline operations or 
increase the quality and accuracy of decisions. In the second year, VBA 
analyzed and synthesized the results of this study and experimentation 
and finalized a strategy to re-engineer the entire claims process, 
focusing on three critical areas: people, process, and technology. Over 
the past year, VBA further developed, refined, and has now begun to 
deploy a new organizational model and a new IT system, known as the 
Veterans Benefits Management System (VBMS). By the end of 2012, VBA 
expects to have rolled out the new organizational model for processing 
claims to all but a few VA regional offices (VAROs).The VBMSwill be 
operational in 18 VAROs by the end of this year, with full national 
deployment scheduled to be completed by the end of 2013.
    Central to the VBA transformation strategy is the development of 
new technology, including the VBMS, the Stakeholder Enterprise Portal 
(SEP), an expanded e-Benefits system with VONAPPS Direct Connect (VDC), 
and the Virtual Lifetime Electronic Record (VLER) initiative. Amongst 
these, the most important is VBMS, which is the paperless, rules-based 
claims-processing work tool that VBA will use to create electronic 
claims files, manage workflow, and increase production, timeliness and 
quality for more than a million claims filed annually, 4 million claims 
files already located in VAROs, and tens of millions more in archives. 
Whether or not the VBMS will ``revolutionize'' VBA claims processing 
may not be known for years to come; however, the transition from paper-
based processing to an intelligent, digital processing system is 
inevitable and VBA must complete it successfully.
    From the beginning of the VBMS development, VBA has reached out to 
DAV and other VSOs to incorporate our perspectives, experience and 
expertise, including accommodating the important role that VSOs play in 
the claims process. Although there have been some obstacles to 
overcome, such as providing full access to rating decisions to VSOs who 
hold power-of-attorney (POA) for claimants, VBA continues to work in 
partnership with VSOs to ensure that claimants can be fully represented 
in the new digital environment.
    The current iteration of VBMS, version 4.0, is a paperless claims 
process, from the creation of an electronic claims file, through the 
development and rating process. VBMS 4.0 also allows direct electronic 
submission of claims from e-Benefits' VONAPPS Direct Connect, thereby 
saving time and money required to scan paper documents. VBMS does not 
yet include the awards process, which continues to be done through its 
stand-alone application, but it is expected to be integrated into VBMS 
as part of a future update.
    Although VBA, DAV and other VSOs are all encouraging veterans to 
file claims electronically whenever practical, there are and will 
continue to be paper claims filed for years to come. VBA, however, has 
implemented a new organizational model for processing claims that calls 
for all paper claims applications to be converted into digital data and 
then processed within the VBMS environment. When a new or reopened 
paper claim is received at a VARO, the veteran's claim will be 
established electronically in VBMS and then the paper file, along with 
any other existing paper files that may already exist or be associated 
with that veteran, will be sent to a scanning center where it will be 
converted into digital data and made a part of the new electronic 
claims file. This new ``e-Folder'' is then put into the VBMS work queue 
and processed in the same manner as claims filed electronically.
    The decision by VBA to convert new paper-based claims as well as 
re-opened claims to digital data is an important milestone on the road 
to a paperless system. DAV is supportive of VBA's stated intention to 
process all future claims through this fully digital system, and we are 
actively collaborating with VBA to encourage as many claimants as 
possible to file their claims electronically, either through e-
Benefits, or with the assistance of our services officers who will be 
able to file claims electronically through the SEP. However, there will 
still be claims filed on paper for the foreseeable future, and there 
still remain millions of veterans' claim files that may one day be 
reopened should they submit new claims or seek increases for current 
service-connected disabilities. It is imperative, therefore, that VBA 
maintain its commitment to converting legacy paper claims files 
whenever a new rating-related action must be made. This may require 
significant up-front investment by VBA in terms of resources, but in 
the long run it will pay dividends for VBA, and more importantly, 
veterans themselves. With VBMS being rolled out to the remaining VAROs 
throughout 2013, there will be an increasing volume of scanning 
required to convert legacy paper claims files, and thus an increased 
need for funding to support this vital conversion process. Although VBA 
has indicated that the anticipated FY 2013 budget contains sufficient 
funding for the digital conversion of claims files this year, it will 
be imperative that the FY 2014 budget contain sufficient funding to 
support the increased volume of scanning that will occur when all 57 
VAROs are processing all of their claims through VBMS.
    Additionally, over the next couple of years, Congress and VBA must 
also ensure that VBMS development and deployment receive all of the 
resources needed to be successful. New software improvements and 
updates are planned to be released about every two months in order to 
expand functionality and capacity, improve usability, and correct 
problems or bugs in the system. Congress must ensure that VBA's IT and 
GOE budgets contain sufficient funding for VBMS development, and 
funding intended to be used for VBMS must not be diverted to any other 
program or purpose.
    Further, in order to complete the conversion to a paperless system, 
VBA must be provided with sufficient resources to incorporate other 
elements of the disability compensation claims process into VBMS, 
beginning with the Appeals Management Center, the Board of Veterans' 
Appeals, and the Court of Appeals for Veterans Claims. Subsequently, 
VBMS should incorporate its other business lines (Pension and 
Fiduciary, Vocational Rehabilitation and Employment, Education, 
Insurance and Loan Guaranty) in order to create a single unified, 
paperless benefits processing system.
    In order to strengthen the management and preservation of veterans' 
military records, there are also some additional steps that should be 
taken. The federal electronic medical record initiative, including 
VLER, must be completed as soon as possible, to allow DOD and other 
public and private health care providers to transmit veterans' medical 
information seamlessly to VA. DOD and VA must also continue working 
with states to ensure the integrity of National Guard military records, 
as well as to improve the transmission of those records to VA in 
optimized digital formats adaptable to VBMS.
    DOD and VA must also work together to create a lifelong electronic 
record system for all service members beginning at the moment of 
enlistment, and including all of their military medical and personnel 
records, including health records from VA and other public and private 
providers. The development of the Defense Personnel Records Information 
Retrieval System (DPRIS) now allows VA to get digital images of 
personnel records, and also allows veterans themselves to access them 
through VA's e-Benefits system. DPRIS, however, only maintains records 
for veterans who were discharged in 1996 or later, depending on their 
branch of service. DOD must continue to examine whether and how they 
might convert older personnel files to the DPRIS or its successor 
systems, just as VBA continues to make similar decisions about the 
conversion of legacy paper claims files. In this regard, DOD, VA, NARA 
and other holders of vital military records must develop comprehensive 
plans about when and how to convert legacy paper files into digital 
records. Among other considerations, such plans must weigh the costs 
involved, the danger of files being lost or damaged during conversion, 
and the cost-benefit of converting legacy files, many of which may 
never be accessed again.
    Finally, as long as there remain paper files that must be stored, 
transferred and preserved, VA, DOD and NARA must have adequate controls 
in place, including regular independent audits, to assure the 
preservation and integrity of vital military personnel and medical 
records. In addition, as each of these agencies converts paper records 
to digital files, there must be sufficient oversight and control to 
ensure that original paper records are not lost or damaged during the 
conversion process.
    Mr. Chairman, this concludes my testimony and I would be pleased to 
address your questions, or those of other Subcommittee members.

                                 <F-dash>
                Prepared Statement of James G. Neighbors
Introduction
    Chairman Runyan, Ranking Member McNerney, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss Department of Defense (DoD) efforts to ensure military 
health, personnel, and other records are properly and efficiently 
maintained and shared with the Department of Veterans Affairs (VA) in a 
timely and effective manner. In this testimony, I will cover how DoD 
captures and transfers to the VA, Medical and Personnel records for 
Active and Reserve Component Service members while in deployed or in 
garrison status. DoD leadership is keenly aware of the importance of 
military records as they pertain to the VA disability claims process. 
Improving the system for which our Service members and Veterans receive 
their well-deserved and earned benefits is a top priority of both 
departments.
Overview of Policy and Procedures Governing the Life Cycle of Medical 
        Records
    Medical and dental records of all Service members, Active Duty, 
Reserve, and National Guard, are created when a person enters military 
service at the Military Services' Reception/Training Centers using the 
Applicant's Record Packets. An Applicant Record Packet contains an 
entrance physical examination, vaccination records, adult preventive 
and chronic care flow-sheet, and associated chronological medical and 
dental care documentation. The information is then transferred to the 
Medical Treatment Facilities (MTF) and Dental Treatment Facilities 
(DTF) at the Service member's first Permanent Duty Station. If the 
Service member is affiliated with a Reserve or National Guard unit, the 
records are transferred to the applicable Reserve or Guard units.
Maintenance of DoD Service Member Medical and Dental Records
    Medical and dental records are maintained at the MTF and DTF at the 
Active Duty Service member's base location, and consistently 
transferred with the Service member as he or she moves to a new 
military installation throughout his or her career. All Reserve and 
National Guard members' applicable medical and dental records are 
maintained at their assigned unit location and will remain there until 
the member transfers to a different unit.
    When Service members are deployed in combat supporting contingency 
operations overseas, medical and dental records are additionally 
maintained at the forward operating base aid station or clinic. When 
the Service member's deployment has completed, all records transfer 
back to the home station MTF and DTF, or to the servicing Reserve/Guard 
units for members of the Reserve and National Guard.
    As Service members out-process for transition or retirement, the 
MTF and DTF where the Service member is stationed conducts a review 
that includes known combat records and outpatient records, for 
completeness.
Capturing Care Delivered in Garrison and Theater
    Implemented worldwide in 2006, the Armed Forces Health Longitudinal 
Technology Application (AHLTA) is the current DoD electronic Health 
Record system. This electronic health record captures and stores 
structured data in the AHLTA Central Data Repository (CDR), giving 
health care providers worldwide, secure, around-the-clock access to 
electronic health information to support DoD's highly mobile Service 
members and beneficiaries. Records in the AHLTA CDR are retrievable at 
nearly 900 fixed and deployed medical and dental treatment facilities. 
The Theater Medical Information Program-Joint (TMIP-J) is an integrated 
suite of software solutions that includes AHLTA-Theater (AHLTA-T) and 
supports military readiness and health care quality with a modular, 
scalable version of AHLTA to operate in low to no communications 
environments such as in theater and aboard ship. AHLTA-T captures 
outpatient encounter records in theater and transfers them to the CDR. 
The information in the AHLTA CDR is available to VA immediately through 
a data feed known as the Bi-directional Health Information Exchange 
(BHIE).
Active Component Personnel Records
    Active Component Service members' official personnel records are 
managed separately from medical and dental records. Personnel data VA 
requires to adjudicate benefits claims, with some exceptions, is 
contained on the paper DD Form 214 (Certificate of Release or Discharge 
from Active Duty), which the Service member receives upon separation 
from the Service. The Military Departments routinely provide this same 
personnel data to the Defense Manpower Data Center (DMDC). DoD also 
provides this information electronically to a VA repository known as 
the VA DoD Identity Repository, commonly referred to as VADIR.
    Prior to the mid-1990s, a Service member's Official Military 
Personnel File (OMPF) was mailed to the National Personnel Records 
Center (NPRC) in St. Louis, Missouri when he or she left military 
service. These OMPF records are still maintained by the National 
Archives and Records Administration (NARA) and are currently available 
for VA through the NPRC. VA routinely accesses these records, and DoD 
maintains financial responsibility for servicing and storing them.
    Since the mid-1990s, the Services have scanned paper records of the 
OMPF and store them as images in Service-specific digital record 
management systems. Since 2002, DoD has provided VA with access to 
Service-specific personnel records using the Defense Personnel Records 
Information Retrieval System (DPRIS). Starting in 2007, DPRIS has been 
available to VA claims adjudicators in a secure, web-based application.
Reserve Components Personnel Records
    DoD maintains, for the most part, separate personnel data systems 
for our Reserve Components, but with the same goals - to leverage 
electronic data capabilities and afford access to VA. The Reserve 
Components Common Personnel Data System (RCCPDS) forms the basis for 
official strength accounting, an authoritative source of identity 
information for identification card issuance, and personnel information 
for the identification of eligibility for federal benefits and 
entitlements. Each Reserve Component (RC) reports personnel data for a 
specific purpose in a licensed DoD reporting requirement. DMDC 
specifies procedures to collect, manage, and maintain this personnel 
data and in addition maintains a bi-directional interface with the VA 
for the management of this data.
    The personnel systems of the Military Services remain the systems 
of record, and the Services have responsibility to maintain the 
complete military record for each Service member. RCCPDS is an 
information source, through electronic reporting, to satisfy VA's 
information needs. The RC Active Service Transaction File, for example, 
provides a key source for the electronic information contained on the 
DD Form 214 for RC Service members, such as periods of active duty, and 
the characterization of service.
Other Personnel Administrative data
    DoD captures other personnel administrative data which VA requires 
to adjudicate benefits for Active, Reserve and Guard Service members in 
the Defense Enrollment Eligibility Reporting System (DEERS). DEERS is a 
series of databases that provide timely and accurate information on 
benefits and entitlements prescribed in DoD policy and published 
instructions. DEERS serves as the definitive centralized source of 
identity, enrollment into TRICARE, and eligibility verification for 
members of the Uniformed Services, other designated personnel, and 
their eligible family members. In addition, DEERS provides statistical 
and demographic information to support the DoD Components and serves as 
the National Enrollment Database for the Military Health System (MHS) 
benefits eligibility and TRICARE enrollments for medical care services. 
DMDC has shared DEERS data electronically with VA since November 2000. 
It is currently transmitted to VA's VADIR system mentioned earlier.
Deployed unit location accountability
    With respect to the Department's ability to identify and account 
for locations and records of units deployed to Iraq and Afghanistan, we 
have applied lessons learned from previous conflicts and have greatly 
enhanced our capability in this area to include the following:
    The Joint Services Records Research Center (JSRRC) provides unit 
information/deck logs to VA for Post-Traumatic Stress Disorder (PTSD) 
via DPRIS. JSRRC has responded to Veterans' claims and initiatives 
since 1980 and conducts PTSD claims research. The DoD Persian Gulf 
Registry, for which the Army is the Executive Agent, is a database that 
contains the names of 758,000 personnel and more than 900,000 daily 
locations of units to which these personnel were assigned while in the 
Persian Gulf.
Unit Location and Environmental Hazards
    DoD recognizes the importance of linking environmental hazard data 
and unit locations and works closely with the VA to provide exposure 
data to adjudicate disability claims as required. Since the 1991 Gulf 
War DoD has implemented programs and policies to better address the 
health protection of deployed Services members for both acute and 
latent/chronic health conditions that may result from environmental 
health hazard exposures. Occupational and environmental health 
assessments are conducted at deployed camps soon after they are 
established to document baseline monitoring of the air, water, and soil 
for hazardous agents. In addition, annual occupational and 
environmental monitoring summaries are completed at major deployment 
locations to identify any changes in occupational and environmental 
health exposure risks and associated health implications. Exposures of 
concern are promptly investigated and if there is a likelihood of 
latent/chronic health effects, special medical surveillance programs 
are established, such as in response to the chromium exposures at the 
Qarmat Ali Industrial Water Treatment Plant in Iraq. When appropriate, 
exposure registries are created for a specific event, as we did in 
response to the Operation Tomodachi Fukushima Nuclear Power Station 
accident in Spring 2011.
    DoD continues to improve systems and processes that document 
exposures during deployments and we are working on an Individual 
Longitudinal Exposure Record (ILER) concept, a joint DoD/VA initiative 
to create a complete record of Service members' exposures over the 
course of their careers. ILER will create exposure registries based on 
location, date, time, and exposure agent, which will support 
contemporary benefits claims as well as retrospective studies. This 
concept will assist Service members and veterans in showing that their 
disabilities were caused by their service. Exposure alone does not 
always lead to illness or injury; VA relies on scientific evidence to 
determine when there is a link between exposure to environmental 
hazards and specific illnesses or injuries that would make Service 
members or veterans eligible for VA disability benefits.
Transfer of Records to VA
    It is DoD policy to transfer medical and dental records to VA when 
a Service member leaves Active Duty due to retirement or discharge. We 
currently transfer personnel and medical records data to VA for over 
300,000 Service members annually both in paper and the majority via 
electronic interface.
    MTFs and DTFs provide the Service member's complete dental records 
to the appropriate Military Service Personnel Out-Processing Centers 
within 30 business days of member's retirement or discharge. TRICARE 
(i.e. military) and civilian doctors' consultation results 
documentation are included in the Service member's medical record 
jacket. The Military Service Personnel Out-Processing Centers (or a 
designated equivalent entity by the Service) then transfers the medical 
and dental records and a paper copy of the DD Form 214 to VA.
    DoD provides the data contained on the DD Form 214 electronically 
to VA within 7 days of the Service member's retirement or discharge to 
use in the benefits adjudication process. The DD Form 214 is an 
official source of information needed to demonstrate eligibility for 
Veterans benefits administered by VA, state and local governments. The 
``remarks'' section contains a number of additional entries, such as 
confirmation that a first term of enlistment had been completed, 
whether the Veteran is subject to recall or annual screening, and dates 
of contingency operation participation. DoD policy requires two paper 
copies of the DD Form 214 to be physically delivered to the separating 
Service member upon transition from the Service. If the Service member 
is not available at separation, these copies are mailed to him or her. 
The separating member may also elect to have a copy mailed to the state 
office of Veterans Affairs where he or she will reside.
Sharing Health Data to Ensure Continuity of Care
    Current exchanges of health care information support continuity of 
care for wounded and injured Service members by enabling:

    <bullet>  Transmission of electronic historical information at the 
time of separation;
    <bullet>  Access to electronic health information for both VA and 
MHS patients by both DoD and VA;
    <bullet>  Sharing of computable outpatient pharmacy and medication 
allergy data on shared patients; and the
    <bullet>  Availability of radiology images and scanned medical 
records at VA Polytrauma Rehabilitation Centers to support continuity 
of care for our most severely wounded and injured Service members.

    The DoD/VA Bidirectional Health Information Exchange (BHIE) 
initiative is an inpatient and outpatient health data sharing 
capability. DoD affords VA clinicians and benefits claims specialists 
with access to health data on more than 4.6 million patients. DoD and 
VA clinicians currently access each other's health data in real time, 
for information pertaining to: allergy, outpatient pharmacy, inpatient 
and outpatient laboratory and radiology reports, demographic data, 
diagnoses, procedures, vital signs, problem lists, family history, 
social history, other history, questionnaires, outpatient encounters, 
periodic health assessments, and theater clinical data, including 
inpatient notes, outpatient encounters, and ancillary clinical data 
(such as pharmacy data, allergies, laboratory results, and radiology 
reports). BHIE also provides bi-directional access to inpatient notes 
(including discharge summaries, inpatient consultations, operative 
reports, history and physical reports, transfer summary notes, initial 
evaluation notes, procedure notes, evaluation and management notes, 
pre-operative evaluation notes, and post-operative evaluation and 
management notes) from DoD's inpatient documentation system.
Moving Toward a Joint Integrated Electronic Health Record
    DoD and VA recognize access to the other Departments' health 
records is a necessary capability to provide a ``single system 
experience of lifetime services''. As we move forward in this effort, 
we are also continuing to improve the current systems and processes 
serving our transitioning Service members and Veterans. We are working 
collaboratively with VA to develop and implement an interim electronic 
data sharing solution that will feature shared access to electronic 
medical records. In January 2011, the VA-DoD Benefits Executive 
Committee approved a recommendation from the Medical Records Working 
Group to leverage ongoing work in the Military Health System in 
conjunction with the Veterans Health Administration to develop and 
deploy a scanning solution known as the Health Artifacts and Image 
Management Solution (HAIMS), a secure web-based technology solution. 
DoD has incorporated Veterans Benefits Administration's (VBA) known 
Information Technology requirements into the current version of HAIMS, 
which is in testing and on track for accelerated deployment by 
September 2013. All loose paper medical documentation will be scanned 
into HAIMS allowing VBA claims adjudicators direct access to scanned 
medical data in the HAIMS repository or access to the information via 
an interface between VBA's internal systems. Although DoD Service 
Treatment Records remain a hybrid of paper and electronic records, 
approximately 60 percent of the DoD health information is available 
electronically and only 40 percent paper bound, HAIMs will greatly 
increase the percentage of electronically available health information. 
Currently VBA personnel can access DoD health data electronically 
through an electronic data exchange.
    DoD and VA are currently planning the development and acquisition 
of a joint integrated Electronic Health Record (iEHR) to replace legacy 
DoD and VA EHRs. The iEHR will unify the two Departments' EHR systems 
into a common system that will ensure DoD and VA health facilities have 
Service members' and Veterans' health information available throughout 
their lifetime. By implementing a single, common health record for DoD 
and VA medical facilities, the iEHR will ensure information about 
injuries and illnesses incurred during military service remain 
available for health and benefits purposes throughout a person's 
lifetime, supporting patient safety and continuity of care and 
facilitating access to and delivery of benefits. Seamless information 
sharing is expected to support the expedient processing of disability 
claims in the future.
    The joint iEHR will be deployed in increments based on prioritized 
functional community needs, technical feasibility, and financial 
viability. The initial iEHR capabilities, laboratory and immunizations, 
will be delivered to two sites (San Antonio, Texas and Hampton Roads, 
Virginia) by the end of 2014. The capabilities of the iEHR will be 
increased incrementally through the end of 2017.
Virtual Lifetime Electronic Record (VLER)
    Virtual Lifetime Electronic Record (VLER) is a joint initiative 
which will ultimately allow Service members' and Veterans' electronic 
administrative and personnel information to be shared seamlessly among 
DoD, VA, and other appropriate federal and private sector healthcare 
providers. VLER is a broad, multifaceted, business and technology 
initiative that leverages existing DoD and VA investments by 
synchronizing information sharing across multiple agencies. It includes 
a portfolio of health, benefits, personnel and administrative sharing 
capabilities. When fully implemented, it will establish a relationship 
with Service members and Veterans that begins the day they enter 
Military service, and maintains that relationship throughout their 
lifetime, proactively providing them with benefits and services. The 
VLER Health Initiative supports the portability and accessibility of 
Service members' and Veterans' electronic health information between 
VA, DoD, and other federal and non-federal exchange partners for the 
purpose of health care delivery. To date, the VLER Health initiative 
has focused on the exchange of medical information for health care 
services among DoD, VA, and private sector providers at joint pilot 
site locations. Through these VLER Health pilots, DoD, VA, and private 
partners successfully leveraged the Nationwide Health Information 
Network to exchange an initial set of clinical information needed for 
health care delivery through four initial pilots in the San Diego, 
California; Tidewater, Virginia; Spokane, Washington; and Puget Sound, 
Washington regions.
    VLER Health is exploring additional innovative technology, such as 
the Office of the National Coordinator for Health Information 
Technology Direct Project, a Health Information Portability and 
Accountability Act-compliant electronic health information exchange 
over the Internet through secure email. Direct Project provides an 
affordable approach to health information-sharing among DoD, VA, and 
private sector providers, which is intended to increase adoption of 
EHRs throughout the health industry. Specifically, it will provide a 
mechanism for including private provider medical reports into the DoD 
and VA EHRs or the joint DoD/VA integrated EHR (iEHR).
    The VLER Benefits initiative supports the portability and 
accessibility of Service members' and veterans' electronic health and 
administrative information among DoD, VA, and other appropriate federal 
exchange partners for the purpose of benefits determination and 
delivery. This will ultimately result in standardized delivery of 
health information to VA benefits adjudicators, decreasing processing 
time and more efficiently supporting our Nation's wounded warriors and 
other transitioning Service members.
    A key feature of VLER Benefits is the development of a DoD Self-
Service (DS) Logon. To date, DS Logon has provided more than 2 million 
Service members and veterans with a log-on ID which allows them access 
to the eBenefits portal to view their personal data. The eBenefits 
portal provides Service members and veterans with more than 40 self-
service features, such as the ability to apply and track application 
for Loan Guaranty Certificate of Eligibility and Veterans Retraining 
Assistance Program.
    To further understand the issue surrounding our journey to a 
paperless future, we are conducting monthly DoD/VA Data Sharing Summits 
to bring Senior Executive-level DoD and VA stakeholders together to one 
forum to discuss the health and administrative information sharing 
processes and obtain resolution to known issues. This forum establishes 
DoD/VA information sharing priorities and tracks progress against 
identified activities. There are also regular meetings with interagency 
partners and internal DoD agencies, such as Social Security 
Administration and the Office of the Assistant Secretary of Defense for 
Health Affairs, to collaborate on information exchange efforts and 
resolve identified obstacles.
Conclusion
    The Department of Defense is committed to a future that eliminates 
reliance on paper-based record keeping and the warehouses that support 
it. DoD is also committed to developing the capability to provide VA 
with requisite information to facilitate a single system experience of 
lifetime services. As we move toward electronic exchange of information 
in real time, it is giving DoD and VA the added benefit of improving 
inter-agency processes based on information requirements, unencumbered 
by legacy forms or manual, paper-based exchange of information.
    Mr. Chairman, thank you again for your generous support of all 
Service members, Veterans and their families. I look forward to your 
questions.
Attachment A - Answers to questions within the hearing
    If there is a loss of unit level records, there is a standard 
process in place. The medical care provided to Service Members is 
documented in the Army Forces Health Longitudinal Technology 
Application (AHLTA). If the medical record is lost, the documentation 
within AHLTA can be printed to re-create the Service Member's medical 
record.
Attachemnt B & C - Answers to questions within the hearing
    The review process began with the implementation of DODI 6040.45, 
``Service Treatment Record (STR) and Non-Service Treatment Record 
(NSTR) Life Cycle Management,'' on October 28, 2010.
    Prior to release of medical documentation, the medical record is 
reviewed to ensure that all requested information is placed in the 
chart. If documentation is missing, the chart is compared to Armed 
Forces Health Longitudinal Technology Application (AHLTA) or the 
appropriate health information system to ensure that all requested 
documentation has been printed. A certification letter is provided to 
the VA that outlines all attempts have been made to ensure that the 
Service Treatment Record is as complete as possible.

                                 <F-dash>
                   Prepared Statement of Scott Levins
    Good afternoon Chairman Runyan, Ranking Member McNerney, and 
members of the Subcommittee. Thank you for calling this hearing and for 
your attention to issues surrounding the management of records which 
document the service of our nation's veterans. I am proud to represent 
the staff of the National Personnel Records Center (NPRC or Center), 
many of whom are veterans themselves, and pleased to appear before you 
today to discuss the work that the National Personnel Records Center 
does to serve those who have served. We appreciate your interest in 
this important work.
    The NPRC is an office of the National Archives and Records 
Administration (NARA). Located in multiple facilities in the St. Louis, 
Missouri area, the Center stores and services over 4 million cubic feet 
of military and civilian personnel, medical and related records dating 
back to the Spanish-American War. In 2000, Congress provided NARA with 
a revolving fund that allows NARA's Federal Records Centers Program, 
including the NPRC, to function on a cost-reimbursable basis. 
Accordingly, NPRC no longer receives annual appropriations for its 
Records Center Program, and instead charges each agency the full cost 
of servicing their records.
History of NPRC's Military Records Program
    In the mid 1950s, the Department of Defense (DoD) constructed the 
Military Personnel Records Center in Overland, Missouri. In the years 
that followed, military personnel, medical, and organizational records 
of each military service department were relocated to this facility. In 
1960, the Center's functions were consolidated and transferred to the 
General Services Administration, to be managed by NARA's predecessor 
agency, the National Archives and Records Service (NARS), as a single 
program, leveraging economies of scale to improve efficiency and 
offering a central point of access for military service records.
    When the Military Personnel Records Center was constructed in the 
1950s, it was not equipped with a fire suppression system. In 1973, a 
massive fire at the Center destroyed 16-18 million records documenting 
the military service of Army and Air Force veterans who separated 
between 1912 and1964. Though the fire occurred almost forty years ago, 
the Center continues to service approximately 150,000 requests per year 
which pertain to records lost in the fire. When responding to fire-
related requests, technicians attempt to reconstruct the basic service 
record by using auxiliary records such as pay vouchers and/or by 
obtaining documents from other official sources. Though the Center is 
normally able to reconstruct basic service data, it is often impossible 
to reconstruct complete records.
    In the Spring of 2011, NPRC's military records facility began a 
relocation into a new building designed to meet updated facility 
standards for storing permanent Federal records. The facility is 
located in North St. Louis County, approximately 15 miles from the 
Overland location. The relocation of records into the new facility was 
completed last month.
Ownership of Records
    In the late 1990s, NARA determined that Official Military Personnel 
File (OMPF) records were of enduring, archival value warranting 
permanent retention in the National Archives of the United States. As 
part of the appraisal process in preparing a formal records disposition 
schedule for OMPFs, NARA worked with the DoD and the military services 
to determine the appropriate ``offer date'': that is the date on which 
a permanent series of records becomes eligible to be offered by an 
agency for legal transfer to NARA. NARA, DoD, and the military service 
departments agreed to fund a study to examine a sample of requests for 
military personnel records and correlate the purpose of each request 
with the veteran's year of separation. The survey found that on 
average, sixty-two years after a service member completes his/her 
obligated service, the purpose for which his/her records is referenced 
changes from a primary use (such as pursuit of an entitlement) to a 
secondary use (such as scholarly research or genealogy). Based upon 
that study, in 2004 the OMPF series was formally scheduled for 
permanent retention, with the legal transfer of ownership to NARA to 
occur 62 years after the completion of a member's obligated service.
    When records have been transferred to the legal custody of the 
National Archives, they become available with fewer restrictions to 
public researchers. They also become subject to a public fee schedule. 
However, NPRC waives fees related to service records in instances where 
the requester indicates that the records are needed to pursue any type 
of benefit derived from the veterans' military service. Statistical 
data indicates that NPRC waives fees in approximately 60% of the 
instances where archival records are requested, indicating higher than 
expected primary use for benefit-related inquiries.
Funding NPRC Services
    From the time NARA assumed responsibility for managing the Military 
Personnel Records Center in 1960 through Fiscal Year 1999, the Center 
was funded through annual appropriations for NARA's operating expenses. 
In Fiscal Year 1999, Congress established an inter-agency revolving 
fund to finance NARA records center storage and related services. The 
Records Center Revolving Fund (codified in the note accompanying 44 
U.S.C. Sec.  2901) allows NARA to operate our network of Federal 
Records Centers, including NPRC, in a business-like manner. NARA pays 
for the operating costs of our Federal Records Centers from the 
revolving fund and then recovers those costs by charging federal 
agencies for the full cost of the records storage and related services 
that they consume. Our customer Federal agencies pay the Records Center 
Revolving Fund from their appropriations. The revolving fund structure 
allows the government to benefit from the economies of scale that come 
from centralized records storage facilities.
    Accordingly, since Fiscal Year 2000, the military services must 
reimburse NARA for most of the costs of operating the military 
personnel records facility. NARA charges the military services for 
storage and related services for records less than 62 years old, which 
are in NARA's physical custody but are legally owned by the services. 
NARA does not charge the services for the storage and servicing of 
military records older than 62 years, which are owned by NARA. NPRC 
staff continue to provide reference service on the holdings after 
transfer, but NARA, rather than the military service, is charged to 
recover the costs of providing the reference services. NARA reimburses 
the NPRC from annual appropriations for that purpose, and is charged 
the same rates that are charged to the military departments for these 
services.
    Currently, NARA furnishes its customer agencies a detailed invoice 
on a monthly basis listing work volumes and charges for each service 
provided. The bulk of the cost of operating NPRC is related to 
responding to personnel-related correspondence requests. NPRC services 
more than one million such requests annually.
Process Improvements
    To improve efficiency and service delivery, in the early 2000s NPRC 
embarked on a multi-year business process re-engineering project (BPR) 
that featured the deployment of modern technology to automate processes 
and expand citizen access, and required its workforce to participate in 
re-training.
    Innovations included web portals for public and Federal agency 
requesters, extensive request and record tracking, automated work 
assignments, automated request servicing, a unique, career advancement 
program that requires passage of competency exercises as a pre-
requisite to promotion, and an innovative, competitive incentive 
program.
    Today, approximately 40% of our public requests are received 
electronically and over 8,000 Federal employees at agencies such as the 
Department of Veterans Affairs (VA), the Office of Personnel Management 
(OPM), and the Social Security Administration (SSA) electronically 
interface with NPRC from their desktops to obtain the information they 
need to, for example, adjudicate medical claims for disabled veterans, 
conduct background checks for security clearances, and process claims 
for social security benefits.
    In the years that followed the BPR, NPRC has achieved a significant 
reduction in the backlog and has greatly improved its response times. 
The average turnaround of a completed request was reduced from 76 days 
in 2002 to 10 days (achieved during Fiscal Year 2012). Overall customer 
satisfaction with the handling of requests improved from 78% of 
respondents indicating either ``mostly'' or ``completely'' satisfied 
during the summer of 2002 to 90% in the summer of 2012.
Servicing Reference Requests
    Today NPRC holds approximately 60 million official military 
personnel files. Its holdings also include service treatment records, 
clinical records from military medical treatment facilities, auxiliary 
records such as pay vouchers and service name indexes, and 
organizational records such as morning reports and unit rosters. NPRC 
stores these records in both textual and micrographic formats.
    NPRC's military records facility receives between 4,000 and 5,000 
correspondence requests each day from veterans, their next of kin, 
various Federal agencies, members of Congress, the media, and other 
stakeholders. It responds to 70% of these requests in ten business days 
or less. Nearly half of these requests come from veterans seeking a 
copy of their separation statement (the DD-214) because they need it to 
pursue a benefit. The Center responds to 90% of these types of requests 
in ten business days or less.
    In servicing correspondence requests, NARA technicians must verify 
the authorization of the requester; identify the responsive record; 
extract, print or copy the responsive documents or information; redact 
third party personal privacy information often prevalent in these 
records; certify reproductions as authentic by applying a raised seal; 
generate a response letter (using pattern paragraphs to simplify the 
process); and prepare the documents for mailing.
    NPRC also responds to Freedom of Information Act (FOIA) requests 
for records within its holdings for all the military services. During 
FY 2012, NPRC responded to a total of over 10,000 FOIA requests and 
responded to 90% of them in twenty business days or less.
Searching for Records
    As described above, NPRC receives 20,000 - 25,000 correspondence 
requests each week. In these instances, an automated assignment 
application assigns the request to a NPRC technician based on pre-
defined rules regarding the complexity of the request, the grade and 
skill level of the technician, the availability of the technician, and 
the amount of requests already assigned to the technician. In concert 
with assigning a request to a technician, the system also attempts to 
identify the file from NPRC holdings that might contain the responsive 
record. In some instances the system is able to use pre-defined logic 
to identify the responsive file and order it to be retrieved from 
storage and delivered to a correspondence technician. In other 
instances, a correspondence technician must perform some analysis to 
identify the file and order it to be retrieved from storage.
    In addition to the correspondence work discussed above, the Center 
receives between 5,000 and 7,000 requests each week from the VA and 
other Federal agencies requiring the temporary loan of original 
records. These requests are normally serviced within 2-3 business days. 
In the case of the VA, nearly every day it provides an electronic file 
which is uploaded into NPRC's system. The electronic file is comprised 
of new requests for the temporary loan of original records. After the 
responsive files have been identified and ordered, NPRC staff attempt 
to locate and retrieve the files from storage. When files are retrieved 
from storage, bar code technology is used to track the files. At the 
end of the cycle, when files are returned to NPRC, they are placed back 
into their original locations and bar code technology is used to verify 
accuracy.
    When files are returned to NPRC after having been loaned to the VA, 
often times documents have been removed from the military service 
record and incorporated into a VA claim folder which remains with the 
VA.
    VA staff have the required licenses and credentials to access data 
in our production system and data warehouse. Likewise, NPRC staff are 
authorized and credentialed to access the VA's Beneficiary Information 
and Records Locator Subsystem (BIRLS) to assist in performing research 
that is often required to identify responsive records or reconstruct 
records.
    In instances where NPRC is unable to respond promptly to a request, 
the biggest obstacle is normally our inability to retrieve the 
responsive file. For example, delays may be experienced if a file is 
currently charged out to another office, undergoing extensive 
preservation treatment (e.g., because of the 1973 fire) or determined 
to have been destroyed in the 1973 fire.
    In instances where a responsive record is not located on a first 
search attempt, the results are analyzed to determine the next course 
of action. In most instances, a second search (also called 
``Verification Search'') is conducted by a more experienced staff 
member. Sometimes this second search involves trying to secure a file 
that is charged out to another agency, or actively moving through the 
order fulfillment process. Other times it involves analyzing data 
elements on the request to determine if an error has been made by the 
requester (eg. inaccurate service number, variation of the veterans' 
name, inaccurate dates of service, etc.).
    In instances where a responsive record cannot be located, NPRC 
technicians will attempt to reconstruct the basic service record by 
using alternate sources of information. Technicians will search through 
auxiliary records, such as pay vouchers, to find evidence of service 
dates and character. They may also search through organizational 
records, such as unit rosters and morning reports. These are especially 
helpful when trying to locate evidence of a particular event, such as a 
combat-related injury. Technicians also query external agencies for 
information which can be used to verify service data. For example, 
technicians often obtain military service documentation from VA Claim 
Folders. Once a technician has verified from official sources the dates 
and character of service, they prepare a certificate (NA Form 13038) 
which can be used in lieu of a DD Form 214 to secure benefits.
The NPRC No Longer Stores all Military Personnel-Related Records
    Sometimes we are unable to provide the requested records because 
they are not located at the NPRC. Despite the original idea in 1960 for 
the NPRC to serve as the sole central repository for information needed 
to verify veterans' rights and benefits, beginning in the early 1990s, 
the military service departments stopped retiring medical records, now 
called service treatment records, to NPRC and instead retired them 
directly to the VA. As a result, the NPRC does not have direct access 
to modern service treatment records. This change was implemented by the 
Army in 1992; the Air Force, Navy and Marine Corps in 1994; and the 
Coast Guard in 1998.
    In the late 1990s and early 2000s, the military service departments 
also stopped retiring official military personnel files to NPRC, 
instead retaining them in-house in electronic formats. This change was 
implemented by the Navy in 1995; the Marine Corps in 1999; the Army in 
2002; and the Air Force in 2004. The Coast Guard continues to retire 
hardcopy personnel records to NPRC.
    The electronic personnel records systems employed by the military 
services vary, but DoD maintains a web-based application called the 
Defense Personnel Records Information Retrieval System (DPRIS), which 
acts as a conduit to retrieve imaged documents from each of the 
Services' electronic systems. DPRIS is maintained by the Personnel and 
Readiness Information Management (P&R IM) Office of the Undersecretary 
of Defense (Personnel and Readiness) ((OUSD (P&R)).
    The military services use their electronic personnel records 
systems to respond to routine correspondence requests from veterans and 
other stakeholders. With the exception of the Department of the Army, 
the NPRC refers correspondence requests for these records to the 
appropriate military department for servicing.
    In 2007, the Department of the Army entered into an agreement with 
NARA to allow NPRC to access DPRIS to retrieve electronic personnel 
records for the purpose of responding to routine correspondence 
requests from veterans and other stakeholders. As a result of that 
decision, NPRC referrals to the Department of the Army were reduced by 
approximately 2,500 requests per month.
    The Air Force, Navy, and Marine Corps continue to service their own 
personnel records and respond to routine correspondence requests from 
veterans and other stakeholders.
Conclusion
    NARA is eager to work with the Subcommittee and other stakeholders 
to explore opportunities to better serve our nation's veterans. We 
invite the Subcommittee members to visit NPRC. We welcome suggestions 
to improve service and efficiency and we again extend our sincere 
thanks to the Subcommittee for expressing such great interest in the 
services NPRC provides. I am happy to answer any questions you may 
have.

                                 <F-dash>
                   Prepared Statement of Alan Bozeman
    Good afternoon, Chairman Runyan, Ranking Member McNerney, and 
Members of the Subcommittee. My testimony will focus on the importance 
of safeguarding the records of Servicemembers and Veterans, 
particularly as the Veterans Benefits Administration (VBA) transitions 
to a paperless claims process. Secure electronic records are vital to 
our transformation and providing more timely and accurate decisions to 
Veterans, their families, and survivors.
Transition to Paperless Claims Processing
    VBA is aggressively executing its transformation, a series of 
tightly integrated people, process, and technology initiatives designed 
to eliminate the claims backlog and achieve our goal of processing all 
claims within 125 days with 98 percent quality in 2015. Key to VBA's 
transformation is ending the reliance on the outmoded paper-intensive 
processes that currently thwart timely and accurate claims processing.
    Currently, VA's Records Management Center (RMC) in St. Louis serves 
as a centralized storage facility for inactive claims files and Service 
Treatment Records (STRs). The RMC responds to inquiries from 
stakeholders and provides information from Official Military Personnel 
Files (OMPFs) to Department of Veterans Affairs (VA) regional offices 
(ROs). To effectively manage this nationwide workload, the RMC employs 
414 fulltime federal workers and operates twenty-four hours per day, 
five days per week.
    The RMC is responsible for the receipt, storage, maintenance, and 
distribution of approximately 7.5 million inactive claims files and 
STRs. To facilitate these objectives, the RMC utilizes a moveable file 
storage system, which provides approximately 107 miles of linear 
shelving space. The RMC estimates that it houses approximately 7.6 
million records and has capacity to hold approximately 8.7 million 
records.
    The RMC has a comprehensive strategy to ensure the safety of its 
personnel and records holdings. The main file storage facility is 
located on a secured campus administered by the General Services 
Administration. The Federal Protective Service ensures the overall 
security of the facility, and all entrances into VA-occupied spaces are 
controlled by either electronic or cipher locks. The electronic locks 
are operated by specifically coded access badges uniquely assigned to 
each employee. The Records Management Officer (RMO) can review 
historical entry logs for the facility, and highly sensitive locations 
as well as the facility perimeter are monitored with security cameras. 
The RMO conducts regular inspections of all occupied spaces and works 
with the Information Security Officer to ensure safety and security 
standards are strictly enforced.
    Depending on the nature of the duties to be performed, each newly-
hired employee at both the RMC and VA ROs completes Standard Form 85: 
Questionnaire for Non-Sensitive Positions via the Electronic 
Questionnaire for Investigation Processing (eQUIP) system. The 
questionnaire and supporting information are forwarded to the Detroit 
Human Resources Center, which works with the Office of Personnel 
Management to conduct National Agency Checks. These checks ultimately 
determine suitability for employment.
    The RMC also ensures security of records during shipping and 
utilizes United Parcel Service (UPS) standard and express options for 
its shipping needs. In fiscal year 2012, the monthly average of 
associated shipping costs was approximately $28,000. To further ensure 
the proper shipment and security of records, all shipments to ROs are 
double-checked with locally established manifests and sealed with 
tamper-evident tape.
    When ROs request either claims files or STRs in support of claims 
adjudication, the request is printed, a physical search of the file 
storage area is conducted, and the record is forwarded, via the 
mailroom, to the RO of jurisdiction. On average, record requests are 
fulfilled within three days from receipt.
    Both the RMC and the ROs rely heavily on the timely return of 
records. On average, the RMC receives 300,000 inactive claims files 
from ROs and 350,000 STRs from the Department of Defense (DoD) each 
year. Currently, the longest phase in the claims process is gathering 
and awaiting evidence, which takes an average of 229 days. VBA is 
working with stakeholders to receive more timely records, which is 
absolutely critical to our transformation.
    As part of our transformation, VBA is deploying technology 
solutions that improve access, drive automation, reduce variance, and 
enable faster and more efficient operations. VBA's digital, paperless 
environment enables greater exchange of information and increased 
transparency to Veterans, the workforce, and our stakeholders. Seventy-
three percent of our Veterans prefer to interact with VA online. We are 
therefore taking a new approach, which includes online claims and 
document submission. Our strategy includes participation of 
stakeholders such as Veterans Service Officers, State Departments of 
Veterans Affairs, County Veterans Service Officers, and DoD to provide 
digitally ready electronic files through online claims submission. This 
is accomplished through electronic data sharing and utilizing a 
stakeholder portal.
Veterans Benefits Management System (VBMS)
    To improve the efficiency of the claims process, VA is executing a 
new business model that relies less on the acquisition and movement of 
paper documents. The Veterans Benefits Management System (VBMS) is a 
business transformation initiative supported by technology to improve 
service delivery. VA recognizes technology is not the sole solution to 
improving performance and eliminating the claims backlog; however, it 
is a critical requirement to our transformation. Without VBMS, we 
cannot succeed in meeting our goal of processing all claims within 125 
days with 98 percent accuracy in 2015.
    Through November 2012, VBMS was successfully deployed to 13 ROs. By 
the end of December 2012, VBMS will be deployed at an additional five 
ROs, bringing the total to 18. VBA is currently on track with the 
deployment schedule. Approximately 20,000 users at all 56 ROs will be 
utilizing VBMS to process claims for compensation benefits by the end 
of calendar year 2013.
    The centerpiece of VBMS is a paperless system, which will be 
complemented by other people, process, and technology initiatives. VBMS 
will dramatically reduce the amount of paper in the current disability 
claims process, and will employ rules-based claims development and 
decision recommendations utilizing rating calculators where possible. 
Additionally, by using a service-oriented architecture and commercial 
off-the-shelf products, VA will be positioned to take advantage of 
future advances in technology developed in the marketplace to respond 
to the changing needs of Veterans over time.
    The VBMS electronic folder (eFolder) is the electronic equivalent 
of the VBA paper claims folder. The eFolder serves as a digital 
repository of all documents related to a claim. Searchable Portable 
Document Files (PDFs) can be uploaded and viewed by multiple authorized 
users simultaneously, with the ability to add annotations to help end-
users locate documents and facilitate processing. The eFolder 
eliminates wait times for physical paper folder transport, reduces 
incidents of lost or misplaced paper folders, and provides on-demand 
access to key documentation.
VBMS Document Security
    VBMS has been engineered to ensure the security and availability of 
Veterans records from the time they are produced electronically and 
throughout their electronic life, fulfilling VA's obligations to 
protect the personal and health information of our Nation's Veterans. 
VBMS utilizes the latest technology and processes to ensure the 
confidentiality of electronic documents throughout the document 
delivery lifecycle. VBMS has been engineered to meet VA Handbook 6500 
and National Institute of Standards and Technology (NIST) Federal 
Information Security Management Act (FISMA) HIGH system categorization 
and accreditation, ensuring Veterans information is well protected 
throughout its electronic lifecycle.
    The VBMS architecture and system implementation are based on a 
common approach of ``Defense in Depth,'' where multiple layers of 
security controls are in place to provide comprehensive protection. 
Security controls are employed at the network, storage, system, and 
user layers. Network layer protections include Virtual Private Network 
(VPN) technologies, bulk encryption devices, multiple layers of 
firewalls and encryption, ensuring that electronic transmissions are 
properly secured against unauthorized access. In storage, documents are 
encrypted when saved to VBMS and when backed-up, to protect the data 
from unauthorized physical access. At the system level, access controls 
and auditing of activity are enforced at multiple levels within the 
application to ensure that only authenticated and authorized users are 
granted access in compliance with VA policies. At the user-level, Role-
Based Access Control (RBAC) governs all access to documents ensuring 
only authorized users are allowed to view an individual's information.
    Protection of electronic documents from loss from any source of 
disaster or malfunction is just as critical as protection from 
unauthorized access. VBMS is hosted in the Culpepper, Virginia 
Terremark facility, with a redundant site in Miami, Florida. VBMS data 
is replicated every 15 minutes from Culpepper to Miami over a 
dedicated, encrypted network connection between the two sites. 
Additionally, a daily snapshot of all system data is generated and 
stored on warm-servers for one week, while a weekly backup is generated 
and stored to a tape backup unit and transported to a secure off-site 
facility. Weekly backups are maintained for two months, and end-of-
month backups are retained for 100 years. All backups remain encrypted 
and protected throughout the storage and relocation processes.
    VBMS is a modern system, engineered to the latest standards in 
information protection technologies. RBAC allows the system to control 
individual access to individual records, ensuring the privacy of 
sensitive Veteran records even as access to the system is provided to 
thousands of VBA, Veterans Health Administration, and Veterans Service 
Organizations authorized users.
Veterans Claims Intake Program (VCIP)
    Transitioning the intake of Veterans' paper claims and supporting 
claims-related source material to digital images and data is a critical 
success factor to feeding VBMS. The Veterans Claims Intake Program 
(VCIP) enables proactive delivery of Veterans benefits by optimizing 
the intake of relevant claims data to be utilized within a digital 
operating environment.
    In support of the continued development and deployment of VBMS, VA 
executed contracts on July 24, 2012, with two contractors to provide 
document conversion services, which will account for 98 percent of VA's 
current document conversion requirements. The contracts focus on 
populating the electronic claims folder (eFolder) in VBMS with images 
and data extracted from paper and other source materials.
    While much focus is placed on scanning, a scanned document is not 
necessarily optimal for claims processing. VA is leveraging technology 
to ensure that the specific information needed to process claims can be 
identified, extracted, and quickly utilized by claims processors. The 
document-conversion contractors are converting both printed and 
handwritten content from source materials (including paper, 
photographs, and medical images) to standardized, indexed, image-only 
PDF and searchable PDF (PDF image plus text) electronic documents. 
Additionally, Optical Character Recognition (OCR) and Intelligent 
Character Recognition (ICR) technologies are leveraged for data 
extraction. These technologies recognize characters, form numbers, and 
patterns in the image and automate the assignment of the correct 
indexing values. In addition, they allow the extraction of data from 
the paper image and its use in automated processing.
    Safeguarding Veterans' records is a priority and is addressed not 
only as a contractual requirement, but also through continuous 
communication and training. Document-conversion security requirements 
for contractors apply to, but are not limited to, personnel security, 
cyber security, as well as physical facility security. Contractors, 
contractor personnel, subcontractors, and subcontractor personnel are 
subject to the same Federal laws, regulations, standards, and VA 
directives and handbooks as VA personnel regarding information and 
information system security.
    The two document conversion services contractors employ strict 
controls to ensure data security. Their scanning and document 
conversion sites are secured in compliance with Federal Information 
Processing Standards Publication 140-2, ``Security Requirements For 
Cryptographic Modules,'' and VA Handbook 6500, ``Information Security 
Program.'' The document conversion services contractors have engineered 
and employed adequate local area network (LAN)/Internet, data, 
information, and system security in accordance with VA standard 
operating procedures, laws, and regulations. The contractors' firewalls 
and web servers have been engineered to meet or exceed VA requirements 
for security. All VA data is protected behind this approved firewall. 
Additionally, the contractors employ strict controls for the physical 
access to the paper records, images, and data from those images, 
storing them on encrypted drives in hardened facilities specifically 
engineered for this purpose.
    In addition to the security of Veterans' records, VA also manages 
the quality of the images and the accuracy of the indexing values 
assigned during the document conversion process. Index values are 
assigned by a combination of the review of the materials and OCR and 
ICR technologies. Subsequent to the document conversion process, both 
image quality and index accuracy are validated by a multi-tiered 
quality assurance system:
       1. The contractors perform 100 percent quality control reviews 
of the images and index values;
       2. The contractors perform industry-standard statistical quality 
assurance samples and audits;
       3. VA quality assurance staff conduct supplemental quality 
validation sampling;
       4. VA is awarding a contract to have an independent contractor 
perform quality verification and validation; and
       5. During disability claims processing, any corrections to 
indexing values made by RO employees are captured and fed back into the 
quality assurance process for additional analysis.

    The contract personnel performing these tasks also undergo a 
vetting process. Most contract personnel are performing low risk duties 
and undergo a National Agency Check with Written Inquiries (NACI), 
which includes a Federal Bureau of Investigation (FBI) name check, a 
FBI fingerprint check, a check of any other existing government 
background investigation, criminal history records, and written 
inquiries to previous employers and references listed on the 
application for employment. Some contract personnel are required to 
complete public trust tasks that warrant a moderate background 
investigation (MBI). An MBI is also conducted by OPM and covers the 
elements of the NACI and also includes a credit report, an interview 
with the subject, and a verification of the educational degree.
Conclusion
    VA understands the importance of securing records. Paperless claims 
processing through VBMS while maintaining the confidentiality, 
integrity, and availability of the data, is critical to our 
transformation goal of eliminating the claims backlog in 2015 and 
ensuring timely and quality delivery of benefits and services to our 
Veterans, their families, and survivors.
    This concludes my testimony. I would be happy to address any 
questions from Members of the Subcommittee.
Attachemnt A - Answers to questions within the hearing
                           SCANNING CONTRACTS
    HVAC Deliverable: Can you provide additional details about the new 
scanning contracts, such as the amount of inventory being processed, 
the duration of the contracts, and their monetary value?
    Response: In support of the continued development and deployment of 
the VBMS, VA executed contracts on July 24, 2012 with two vendors, 
System Made Simple (SMS) and CACI International, to provide document 
conversion services. The contracts focus on populating an electronic 
folder (eFolder) in VBMS with images and data extracted from paper and 
other source materials, which is the first step in the paperless claims 
processing system.
    The vendors are converting various documents (both printed and 
handwritten content from various source materials) into standardized, 
indexed, Image-Only Portable Document Format (PDF) and Searchable PDF 
(PDF Image plus Text) electronic documents. Additionally, Optical 
Character Recognition and Intelligent Character Recognition (OCR/ICR) 
technologies will be leveraged for data extraction. VBA will identify 
certain documents with probative value to claims processing to perform 
data extraction using OCR/ICR. Extracted data will be used to populate 
the Corporate Database or VBMS, eliminating the requirement for VSRs to 
re-key this data.
    VA will order a guaranteed minimum volume of 1.2 billion images if 
all the optional periods are exercised. This includes 342 million 
images in the based period, 480 million images in the first option 
period, and 360 million images in the second option period. The maximum 
volume will be nearly 2.3 billion images consisting of 704 million 
images in the base period, 837 million images in the first option 
period, and 743 million images in the second option period.
System Made Simple (SMS)
    VA has obligated $22,651,200 to fully fund the minimum guaranteed 
amount of services in the base period, which began July 25, 2012. The 
maximum potential costs include:

    <bullet>  Task Order: $143,384,669
    <bullet>  15-Month Base Period: $56,542,588
    <bullet>  12-Month Option Period 1: $44,970,176
    <bullet>  12-Month Option Period 2: $41,871,905
CACI, International
    VA has obligated $22,583,743 to fully fund the minimum guaranteed 
amount of services in the base period, which began July 25, 2012. The 
maximum potential costs include:

    <bullet>  Task Order: $180,813,186
    <bullet>  15-Month Base Period: $71,038,083
    <bullet>  12-Month Option Period 1: $57,824,453
    <bullet>  12-Month Option Period 2: $51,950,650

                                 <F-dash>
                   Materials Submitted For The Record

   Letter From: Hon. Michael H. Michaud, Subcommittee on Disability 
 Assistance and Memorial Affairs, Committee on Veterans' Affairs - To: 
   The Hon. Leon E. Panetta, Secretary of Defense, and The Hon. Eric 
                Shinseki, Secretary of Veterans Affairs
    Dear Secretary Panetta and Secretary Shinseki,

    I am writing to express my concern with recent reports that the 
military has been destroying or failing to keep records from the field 
in Iraq and Afghanistan. I am very worried that the lack of records 
will have serious consequences for corrent and future veterans of these 
wars.
    According to investigative reporting done by Pro Publica, the 
Pentagon was aware of this serious crisis in unit level recordkeeping 
as eary as 2005, but multiple units are unable to produce any records 
through 2008. These records include after-action write-ups, 
intelligence reports and on-the-ground accounts, including information 
on fighting, casualties, prisoners, battle damage, pictures and maps. 
The lack of these records for the conflicts in Iraq and Afghanistan 
will have far reaching implications for both our understanding of these 
wars and the ability of veterans to get the care and benefits they have 
earned through their service.
    Since October 1, 2001, 1,515,707 veterans of the Iraq and 
Afghanistan Wars have become eligible for VA health care, and that 
number will grow as the remaining Afghanistan force is drawn down. It 
is critical that Congress, the Department of Defense and the Department 
of Veterans Affairs work together to improve the record keeping process 
and protect the rights of our veterans going forward. In order to 
ensure that all necessary remedies are put in place, I request 
information on the Department of Defense and the Department of Veterans 
Affairs' joint efforts to address the impact the loss of these records 
will have on individual veterans filing benefit claims and the impact 
on the efforts of researchers examining war time health risks and 
patterns.
    In addition, I request that the Department of Defense provide 
information on the steps taken to ensure that military units are 
submitting field reports and any evidence that demonstrates improvement 
in the collection of these records. I request that the Department of 
Veterans Affairs provide information on how often these types of 
records are used by veterans to establish a disability claim, including 
claims where a witness affidavit is submitted in place of an official 
military record.
    Our service members and veterans depend on your agencies and 
Congress to protect them in battle and to care for them at home. We 
cannot allow these lost records to lead to the same gaps in knowledge 
and care that our Vietnam veterans face with Agent Orange and our First 
Gulf War veterans face with medically unexplained illnesses. I 
appreciate your attention to this important matter and look forward to 
working with you both as we continue to care for those who have served 
our country.
                            Sincerely,

                            Michael H. Michaud
                            Member of Congress

                                 <all>

</pre></body></html>
